<html>
<title> - NOMINATIONS TO THE AMTRAK REFORM BOARD, FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION, NATIONAL TRANSPORTATION SAFETY BOARD, AND THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 109-1126]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1126
 
                NOMINATIONS TO THE AMTRAK REFORM BOARD,
                      FEDERAL MOTOR CARRIER SAFETY
                ADMINISTRATION, NATIONAL TRANSPORTATION
                         SAFETY BOARD, AND THE
                      DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                  U.S. GOVERNMENT PRINTING OFFICE
65-181                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2006.....................................     1
Statement of Senator Inouye......................................     6
    Prepared statement...........................................     6
Statement of Senator Lautenberg..................................     6
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     1

                               Witnesses

Biden, R. Hunter, Nominee to be a Member of the Amtrak Reform 
  Board..........................................................     7
    Biographical information.....................................     8
Carper, Hon. Thomas R., U.S. Senator from Delaware...............     2
Hill, John H., Nominee to be Administrator of the Federal Motor 
  Carrier Safety Administration, Department of Transportation....    16
    Prepared statement...........................................    17
Issa, Hon. Darrell E., U.S. Representative from California.......     3
    Prepared statement...........................................     5
McLean, Donna R., Nominee to be a Member of the Amtrak Reform 
  Board..........................................................    12
    Biographical information.....................................    12
Rosenker, Mark V., Nominee to be Chairman of the National 
  Transportation Safety Board....................................    20
    Biographical information.....................................    21
Steinberg, Andrew B., Nominee to be Assistant Secretary of 
  Transportation for Aviation and International Affairs..........    24
    Prepared statement...........................................    25
    Biographical information.....................................    26

                                Appendix

Allen, Hon. George, U.S. Senator from Virginia, prepared 
  statement......................................................    41
Ephraimson-Abt, Hans, Spokesman, Air Crash Victims Families 
  Group, prepared statement......................................    45
Lugar, Richard G., U.S. Senator from Indiana, prepared statement.    41
Scardelletti, Robert A., International President, Transportation 
  Communications International Union, prepared statement.........    42
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    R. Hunter Biden..............................................    58
    John H. Hill.................................................    48
    Donna R. McLean..............................................    46
    Mark V. Rosenker.............................................    59
    Andrew B. Steinberg..........................................    54
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    John H. Hill.................................................    56
    Donna R. McLean..............................................    56
    Andrew B. Steinberg..........................................    57


                    NOMINATIONS TO THE AMTRAK REFORM
                      BOARD, FEDERAL MOTOR CARRIER
                    SAFETY ADMINISTRATION, NATIONAL
                    TRANSPORTATION SAFETY BOARD, AND
                    THE DEPARTMENT OF TRANSPORTATION

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you, we're sorry for the votes that 
have interrupted our schedule and appreciate your waiting. Now, 
we're going to hear from five of the present nominees for 
various transportation positions. We welcome you, the first 
we'll hear from will be Senator Carper to introduce Mr. Biden 
for the Amtrak Board.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    This afternoon the Committee will hear from five of the President's 
nominees for various transportation positions. The Committee welcomes 
each of you.
    Hunter Biden and Donna McLean have been nominated for the Amtrak 
Reform Board, and would serve for 5 years if confirmed. Amtrak is a 
controversial topic of discussion for this Committee, and I look 
forward to hearing what fresh ideas each of you will bring to the 
Board. Senator Carper will introduce Mr. Biden, and Senator Lugar has 
requested that a statement in support of Ms. McLean be placed in the 
record.
    John Hill has been nominated to be Administrator of the Federal 
Motor Carrier Safety Administration. The FMCSA's principal mission is 
to reduce the number of crashes, injuries and fatalities involving 
large trucks and buses. Senator Lugar also has submitted a statement 
for the record in support of Mr. Hill.
    Mark Rosenker, who has been with the National Transportation Safety 
Board for 3 years, has been nominated to be Chairman of the NTSB. Mr. 
Rosenker has been the Acting Chairman since March 2005 and a Member of 
the NTSB since 2003.
    The work of the NTSB has been especially significant to Alaska. My 
state lies under 20 percent of the airspace in the U.S. system, 
contains over 20,000 pilots, and nearly 10,000 registered aircraft. 
Because of the sheer number of aircraft and the weather challenges, 
Alaska has experienced twice as many accidents than the Lower 48. The 
role of the NTSB is crucial to improving our safety rate. The Committee 
welcomes Congressman Issa this afternoon, who will introduce Mr. 
Rosenker. Senator Allen has requested that a statement in support of 
Mr. Rosenker be included in the record.
    Andrew Steinberg has been nominated to be Assistant Secretary for 
Aviation and International Affairs within the Department of 
Transportation. If confirmed, Mr. Steinberg would be responsible for 
the development, articulation, and review of policies for economic 
issues in domestic and international transportation.
    I have been notified that many of the nominees have family in 
attendance today, and I hope the nominees will take a moment to 
introduce their respective family members to the Committee when they 
come to the table.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thank you very much, Mr. Chairman and to 
Senator Burns and your colleagues. Today my oldest son 
Christopher came to Washington with family including one of his 
colleagues from a high school he just graduated from last week. 
During the course of lunch and the time on the Hill, they met a 
lot of our Senators who've seen my boys grow up over the years 
through our Christmas cards and everyone remarked how big he's 
gotten to be, and he's tall, he's like 17 years old and he's 
taller than his dad and I think a whole lot smarter, too. They 
marvel at how quickly these children grow up--is this the 
little boy that I remember that was born when you were in the 
House of Representatives? I said, yes he is.
    Our children grow up and oftentimes, they make us mighty 
proud. Today, I'm privileged to introduce the son of one of our 
colleagues, Joe Biden, who's here today along with his wife, 
Jill to support Hunter Biden. Hunter's joined by his wife and 
children and other members of the family.
    Hunter Biden is a native Delawarian and I would go on to 
say that he's also been nominated to serve on the Amtrak Board 
of Directors. When Hunter was unable to get into the University 
of Delaware, he instead went on to Georgetown and then to Yale 
Law School and managed to get through those OK. He's ended up 
being Senior Vice President at MBNA one of the largest 
financial institutions in the country. He served as Executive 
Director of Economy Policy Coordination at the U.S. Department 
of Commerce. About 5 years ago he went off and formed a law 
firm here in Washington, D.C., and now they represent over 100 
clients including a bunch of non-profit organizations and 
educational institutions.
    More specifically, though, and for our purposes and for the 
purpose of this nomination, Hunter Biden has spent a lot of 
time on Amtrak trains. Like his father, like our Congressman, 
Mike Castle and myself, Hunter Biden has lived in Delaware 
while using Amtrak to commute to his job as we commute to our 
job in Washington almost every day of the week. You know, you 
learn a lot about what could work and what would work better at 
Amtrak by riding trains and talking to the passengers, the 
commuters, the passengers, the folks who work on the trains and 
make them work every day. You also have a chance to see the 
huge economic benefit the region receives from having a strong 
passenger rail corridor, something that should be available in 
a lot of other parts of our country.
    The second reason I am pleased to see this nomination move 
forward is I believe it shows a beginning to move back toward a 
bipartisan direction at least with respect to this particular 
board. The Amtrak Board has traditionally had both Democratic 
and Republican members, but for the past several years, it has 
been partisan and it has been incomplete.
    Last November, my colleagues recall that 93 members of the 
Senate, supported Amtrak reauthorization, legislation 
introduced by Senator Lautenberg, co-sponsored by myself, and I 
know many Members of this Committee. We saw that Amtrak has 
strong bipartisan support. Passenger rail, like highways and 
airports, is not a partisan issue and shouldn't be a partisan 
issue and it's a mode of travel that we believe is gaining 
popularity in a time when commuters are being pinched by high 
gas prices and frustrated with highway and airport congestion.
    Finally, as we confirm a full, bipartisan Board at Amtrak, 
that Board will be more able to take on the difficult issues 
that face Amtrak, from tackling long-deferred maintenance, 
modernizing the system nationwide and addressing demand for new 
and expanded service across the country on already stretched 
freight tracks. A full bipartisan Board that has been duly 
confirmed by this Senate will have the credibility needed to 
take on these challenges and move Amtrak and our country into 
the 21st century. And while we are tackling these challenges, 
it will be comforting for the millions of Amtrak riders and 
commuters to know that one of their own, Hunter Biden, will be 
on the Board of Directors.
    And, if I could just say it's a point of personal 
privilege, I have been privileged to have lived in Delaware 
since 1973, since I got out of the Navy, and Joe Biden was one 
of the first people I met when I arrived there. I've known his 
sons for literally all of their adult lives. He and Jill have 
raised two boys and a girl that any of us would be proud to 
call our own and I am. It's deeply a privilege to sit here 
today before them and before you to be able to offer him as our 
candidate from Delaware to serve on this board. Thank you.
    The Chairman. Thank you very much, Senator, for coming. 
Congressman Issa, you have a person to introduce?

              STATEMENT OF HON. DARRELL E. ISSA, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Congressman Issa. I do, thank you, Mr. Chairman, thank you, 
Senator Inouye and Members of the Board. It gives me great 
pleasure to introduce my dear friend and a great public 
servant, Mark Rosenker who has been nominated by the President 
to be Chairman of the National Transportation Safety Board.
    Since his first confirmation more than three and a half 
years ago, he has demonstrated himself as a highly qualified 
and energized member and leader of this critically important 
Federal agency. Before I talk more about my friend, if you 
don't mind, a point of privilege also, his wife Heather is here 
with us today and among her many sacrifices, she has seen him 
trot all over the country in fulfilling both his board seat and 
as the Acting Chairman of the National Transportation Safety 
Board. He has been away a lot and been very proactive and I 
appreciate her sacrifice up to date and obviously with your 
indulgence, his continued sacrifice. I know that he also has 
family and friends here today that are also looking forward to 
this event, one that he has earned over a lifetime of public 
service.
    During his tenure at the National Transportation Safety 
Board, Mark has brought a wealth of management and advocacy 
experience to the Board. You may not know that General Mark 
Rosenker has 37 years of Reserve and active duty. It's Major 
General Rosenker who has been decorated with the Distinguished 
Service Medal, Legion of Merit, and two Meritorious Service 
medals. In his role as a General Officer and before that, up 
through the ranks, he has been involved in exactly the skill 
building that you need to have here, organizational activities 
to prevent mishaps and then, if necessary, to be the face and 
the leader to deal with the inevitable that will eventually 
happen when there has been a problem. He is able to calmly 
enter the scene, make the statements, bring about the people to 
correct and to minimize that damage. I think that's a unique 
combination of private sector and military experience that 
first led to President Bush appointing Mark to be the Deputy 
Assistant to the President and Director of the White House 
Military Office on the first day of the Bush Administration.
    In that senior staff position, Mark was the principal 
advisor for all military support of the White House, which 
includes policies, personnel, plans involving DOD assets such 
as Air Force One, Marine One and White House transportation, 
and although he never took me there, Camp David. After serving 
nearly 2 years, I don't know if he did that for either of you, 
but I'm hoping you'll confirm him anyway, but after serving--
don't go there Heather--after serving nearly 2 years at the 
White House, President Bush nominated Mark to be a member of 
the National Traffic Safety Board and since his confirmation by 
the Senate in March of 2003 and then again in December of last 
year, President Bush twice designated him to serve in the role 
as Vice Chairman. And since March of last year, March of 2005, 
Mark has been serving with distinction as the Acting Chairman.
    During his time at the Board, Mark/Mr. Rosenker/General 
Rosenker has been a strong and outspoken advocate for 
transportation safety particularly one of his passions that he 
has been focused on and I believe he will accomplish, is 
working to minimize injuries and fatalities rather than simply 
mitigating the results. His leadership has earned him the 
Recreational Boating and Safety Issues Award, from the National 
Safe Boating Council. Additionally, he has been recognized in 
the aviation industry and if I can particularly focus on the 
aviation industry, one of Mark's passions has been to get the 
youngest among us, the under 2 years old, who presently are not 
in seatbelts on aircraft, into seatbelts. That's an admirable 
effort, one that's long overdue for general aviation and I 
believe that, given his confirmation, that is an area of safety 
that he will be proactive in minimizing accidents that often 
happen when it's nothing but a disturbance in the air.
    I would ask that the rest of my statement be put into the 
record, since I want to respect the clock, but I have known 
Mark Rosenker and General Rosenker for going on 20 years. I've 
known him in the private sector and in his public duties, both 
as a military officer and in his work in the White House. We 
are very lucky that he has been standing in as the Acting 
Chairman and I believe that if he's confirmed, he will serve 
with distinction not previously seen in that role.
    And I thank you.
    [The prepared statement of Congressman Issa follows:]

              Prepared Statement of Hon. Darrell E. Issa, 
                  U.S. Representative from California

    Mr. Chairman, Members of the Committee, it gives me great pleasure 
to introduce to you a very dear friend and a great public servant who 
has been nominated by President Bush for Chairman of the National 
Transportation Safety Board.
    Since his first confirmation more than three and a half years ago, 
he has demonstrated himself to be a highly qualified and energized 
member and leader of this critically important Federal agency. Before I 
talk more about Mark, I'd like to introduce his wife Heather. I'd also 
like to welcome many of Mark's friends and colleagues who have come to 
show their support for him as well.
    During his tenure, Mark has brought a wealth of management and 
advocacy experience to the board. With more than 37 years of active and 
reserve duty in the Air Force, Mark has risen to the rank of Major 
General. His decorations include the Distinguished Service Medal, 
Legion of Merit, and two Meritorious Service medals.
    Because of his unique combination of private sector and military 
experience, President Bush appointed Mark to be a Deputy Assistant to 
the President and the Director of the White House Military Office on 
the first day of his administration.
    In this senior staff position, Mark was the principal advisor for 
all military support to the White House, which included policies, 
personnel and plans involving DOD assets such as Air Force One, Marine 
One and White House transportation, just to name a few.
    After serving nearly 2 years at the White House, President Bush 
nominated Mark to be a member of the NTSB. Since the Senate first 
confirmed Mark in March of 2003 and then again in December of last 
year, President Bush has twice designated him to serve in the role of 
Vice Chairman. And since March of 2005, Mark has been serving with 
distinction as the Acting Chairman.
    During his time at the Board, Mark has been a strong and outspoken 
advocate for transportation safety. Mark has focused his attention on 
the prevention of accidents, injuries and fatalities, rather than just 
mitigating the results.
    For his leadership role in recreational boating safety issues, the 
National Safe Boating Council presented Mark with their highest honor, 
the Confluence Award. This award is traditionally given to Members of 
Congress and Mark is one of a few executive branch people to receive 
this award.
    The aviation industry acknowledges his leadership role in the 
challenging issue of preventing runway incursions. He has been 
outspoken in attempting to get the FAA to require that all children 
under the age of two be secured by safety belts while flying.
    Mark has seen significant changes and advancements in 
transportation safety and technologies since beginning his advocacy 
career over 30 years ago representing the American Safety Belt Council, 
the Motorcycle Safety Foundation and the Safety Helmet Council of 
America .
    Mark tells me that when he began talking about safety belt use laws 
in the early 1970s, less than 5 percent of the American people used 
their safety belts, and there were not state laws requiring their use. 
Contrast that to the recent announcement from the Department of 
Transportation, that 82 percent currently wear their belts with 49 
states having some form of law to require their use.
    Clearly Mark has demonstrated that he is capable and enthusiastic 
about the board and its mission.
    Once again, I am proud to introduce my good friend Mark Rosenker 
and I urge all of you to support his nomination as Chairman of the 
National Transportation Safety Board.

    The Chairman. Thank you very much Mr. Issa. And we thank 
you very much and we'll excuse you now and we'll ask that the 
five nominees come to the table--Mr. Biden, Mr. Hill, Ms. 
McLean, Mr. Rosenker and Mr. Steinberg.
    Now, thank you, the Co-Chairman is here, I don't know if he 
has an opening statement.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you very much for 
this opportunity to congratulate all of the nominees that have 
been selected to serve in positions that are very critical to 
our transportation system. I ask that the rest of my statement 
be made part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I want to congratulate each of the nominees. You have been selected 
to serve in roles that are critical to the future of America's 
transportation system.
    From transportation safety to national aviation policy, the work 
you will perform at each of your respective agencies, should you be 
confirmed, will help ensure that America's renowned transportation 
system continues to support our vibrant economy and our great tradition 
of efficient travel and mobility.
    The position each of you has been appointed to comes with unique 
challenges:

  <bullet> The Chairman of the National Transportation Safety Board 
        (NTSB) must enhance the Board's management, refocus the use of 
        the Academy, and ensure that reports are issued in a timely 
        manner, all while preserving the Board's high-caliber 
        investigative work.

  <bullet> Amtrak Board Members must continue the progress made by 
        former President David Gunn, and create an efficient and 
        effective national passenger railroad. Board members also must 
        work with the Congress to reauthorize the railroad, gain stable 
        and adequate funding, and promote new investments that will 
        unlock the promise of rail service in new corridors.

  <bullet> The Assistant Secretary for Aviation and International 
        Affairs faces an industry that has struggled for the past few 
        years, but also is full of opportunity and potential growth. It 
        is critical that the nominee work with the Congress to produce 
        solutions that help the country navigate an increasingly global 
        transportation network.

    In recent interactions with the Federal Aviation Administration 
(FAA) regarding labor contracts the Administration has not been 
particularly forthcoming with the Congress. The Department also made 
significant missteps with its rulemaking on foreign control of U.S. 
airlines. I urge the nominee to communicate directly and consistently 
with this Committee. It will help all of us serve the public more 
effectively. Add to these challenges the government-wide, budget 
restraints brought on by historic deficits and the demands to improve 
safety and mobility, your work becomes even more challenging.
    I thank each of you for your commitment to public service and look 
forward to hearing your perspectives today as we examine your 
credentials and views. Should you be confirmed, I can assure you that 
we will be in touch regularly.

    The Chairman. I apologize, does any other Member have a 
statement to make and I'd ask that my opening statement be put 
in the record. All right, Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Yes, Mr. Chairman, I'll be brief. These 
are critical jobs that are to be filled here, and these are 
very good candidates. Of course, when someone says that to you, 
and you've been around here long enough to know better, they'll 
usually say something pleasant before the rest comes. But in 
any event, I really do believe that we have some outstanding 
people here. I just wanted to raise a question--and I don't 
want to pick on anybody in particular, Mr. Chairman--but let me 
start with Mr. Hill's thoughts on several issues. I'd like to 
hear about them, regarding, as a result of the job that he has 
held, the size and weight of trucks, particularly since 
Secretary Mineta commented last week that he'd consider 
expanding the use of triple trailer vehicles. So I want to help 
you prepare yourself for the question, Mr. Hill.
    And I would hope that the Nation's top truck safety 
advocate wouldn't be advocating a change that might include 
some new safety risks on the road.
    In terms of my interest, as you know very well, Mr. 
Chairman, I think everybody pretty much does when it comes to 
Amtrak, I'm glad to see that we're going to be filling two of 
these posts and look forward to having a chance to chat with 
them. I thank you, Mr. Chairman, for your ever dutiful response 
to issues that we're concerned about and this hearing is one of 
them. Thank you.
    The Chairman. Thank you very much, so what we intend to do 
is to go through each member and as you're introduced and we 
hear from you, we hope that you will start off by introducing 
your parents and family with you, some famous some infamous and 
some you don't want to introduce anyway, but do it, well, do 
it. That means that we're starting with Hunter Biden and Donna 
McLean, who have been nominated to the Amtrak Reform Board and 
will serve for 5 years if confirmed. It is a controversial 
subject of discussion for this Committee, and I'm sure that 
you'll have some questions as we go forward.
    Senator Carper has introduced you, Mr. Biden and Senator 
Lugar has sent a statement in support of Ms. McLean. I've known 
you longer than you've been alive, Hunter, so if you want to 
introduce your family, and I think you can ignore your dad, I 
think we know him.
    Mr. Biden. Thank you, Mr. Chairman. My mother is sitting 
right here, Jill Biden, my oldest daughter, Naomi is right 
here, my youngest daughter, Maisy, who's sleeping, or she just 
woke up, my wife Kathleen, and in my dad's lap, my middle 
daughter, Finnegan Biden. Thank you.
    The Chairman. Thank you very much. Well, do you have a 
statement for us, Mr. Hunter?

  STATEMENT OF R. HUNTER BIDEN, NOMINEE TO BE A MEMBER OF THE 
                      AMTRAK REFORM BOARD

    Mr. Biden. Yes, I do, Mr. Chairman, thank you. Mr. 
Chairman, Mr. Co-Chairman, Members of the Committee, I am 
honored to appear before you today, and I am honored that 
President Bush has nominated me to be a Member of the Amtrak 
Reform Board. Amtrak touches so many facets of so many 
Americans lives, and if confirmed, I look forward to working 
with the Members of this Committee and the Congress to make 
sure that Amtrak continues to play that important role to so 
many people who rely on it daily. I see this appointment as a 
great opportunity to help turn around what can and must be a 
key component of our transportation system. What should be one 
of our success stories; right now it is one of our biggest 
challenges.
    I believe that my experience in government, at the U.S. 
Department of Commerce working for both Secretary Daley and 
Secretary Mineta, and in the private sector, in both banking 
and the law has prepared me well for this position. At the same 
time, as a frequent commuter and Amtrak customer for over 30 
years, I have literally logged thousands of miles on Amtrak. I 
hope that I can bring my perspective to the Board as one of the 
millions of customers who ride and depend upon Amtrak every 
day. It has been through my experience as a customer that I 
have developed a deep respect for the organization and its 
employees, and I know how much they believe in and are 
committed to making Amtrak a safe and reliable service. It is 
also as a longtime Amtrak customer that I know first hand some 
of the many problems Amtrak faces as an organization.
    Working together, I believe that Members of the Board, 
Members of Congress, the Administration and the employees of 
Amtrak can overcome many of the issues intercity rail faces 
today. If confirmed, I look forward to being a part of that 
discussion and look forward to the challenge. Amtrak is too 
important to our economy for it not to be in the best financial 
health possible. I take the fiduciary responsibility required 
by the Members of the Board very seriously, and believe that 
above all else that the American people expect that its 
national rail system be run as safely, efficiently and cost-
effectively as possible.
    I also recognize that Amtrak affects, and is affected by, 
many of the most important issues of the day. In an era of 
mounting energy concerns in which driving a car is getting more 
and more expensive, intercity rail must be part of the 
solution. A healthy national passenger rail system can provide 
millions of commuters with a reliable and hopefully, cost-
effective alternative to other forms of transportation. In 
addition, I believe that in the 21st Century a robust, cost 
efficient national passenger rail system is a necessity, and 
that you can not look at the energy and environmental issues 
facing our country today without looking at intercity rail and 
Amtrak as a part of the solution.
    Finally, if confirmed, I particularly look forward to 
working with the Members of this Committee and the Congress to 
ensure that Amtrak is an integral part of our homeland security 
strategy. I believe that it is imperative that Amtrak work 
closely with Federal and local law enforcement to make sure 
that our commuter rail system is safe from terrorist attack. I 
hope to have the opportunity to work with the Members of this 
Committee and the Congress to solve some of these challenges 
facing Amtrak and I want to thank you for the opportunity to 
appear before you and I welcome any questions the Committee may 
have. Thank you.
    [The biographical information of Mr. Biden follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Robert Hunter 
Biden.
    2. Position to which nominated: Amtrak Reform Board.
    3. Date of Nomination: May 16, 2006.
    4. Address (List current place of residence and office addresses):

        Information not released to the public.

    5. Date and Place of Birth: 02/04/1970; Wilmington, DE.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Kathleen Biden, Mother.
        Naomi James Biden, Age 12.
        Finnegan James Biden, Age 5.
        Roberta Mabel Biden, Age 7.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Georgetown University, BA, 1992.
        Yale Law School, JD, 1996.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
    As a Senior Vice President at MBNA America, I worked in several 
executive management roles, including managing an investigative unit of 
the consumer fraud division and management of all external and internal 
``Y2K'' communications. As Executive Director of E-Commerce Policy 
Coordination at the U.S. Department of Commerce, I was responsible for 
managing and coordinating the communication and implementation of 
Department and Executive Office E-Commerce policy initiatives within 
the Office of The Secretary. Finally. since founding a law firm 5 years 
ago, I, along with one other partner, have built a firm that now has 
fifteen employees, 10 partners. and represent over 100 clients.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: N/A.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Oldaker, Biden and Belair, LLP--Partner
        The National Group, LLP--Partner
        Owasco, P.C.--Proprietor
        LBB Holdings U.S.A.--Managing Member
        National Prostate Cancer Coalition--Member, Board of Directors

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Fieldstone Country Club, Wilmington, DE (12/2001-8/2003)
        The Club has no restrictive policies.
        Yale Club, NY, NY--no restrictions.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of 5500 or more for the past 10 years.


------------------------------------------------------------------------
                                                                Amount
   Political Committee            Candidate           Date      (in $)
------------------------------------------------------------------------
Mark Pryor for U.S.        Mark Pryor               02/05/02       1,000
 Senate
Mark Pryor for U.S.        Mark Pryor               02/05/02       1,000
 Senate
Friends of Barbara Boxer   Barbara Boxer            06/26/02       1,000
Friends of Barbara Boxer   Barbara Boxer            06/26/02       1,000
Ron Kirk for U.S. Senate   Ronald Kirk              09/24/02         500
Wofford for Congress       Daniel B Wofford         09/24/02       1,000
Jean A Carnahan PAC                                 10/31/02       1,000
Friends of Barbara Boxer   Barbara Boxer            03/31/03       1,000
Friends of Barbara Boxer   Barbara Boxer            03/31/03       1,000
Daniel K Inouye for U.S.   Daniel Inouye            06/27/03       1,000
 Senate
TOM PAC                                             12/01/03       2,500
TOM PAC                                             12/15/03       1,000
Citizens for Arlen         Arlen Specter            01/22/04       1,000
 Specter
New Leadership for                                  02/09/04       1,000
 America PAC
Carnahan in Congress       Russ Carnahan            03/29/04       2,000
Chris John for U.S.        Chris John               03/30/04         500
 Senate
Case for Congress          Edward Case              06/30/04         500
Jesse Jackson JR for       Jessie Jackson Jr.       07/02/04       1,000
 Congress
Vermont Victory 2004       Leahy for U.S. Senate    09/20/04         500
Carnahan in Congress       Russ Carnahan            11/18/04       1,000
Cantwell 2006              Maria Cantwell           01/28/05         500
Searchlight Leadership                              02/17/05         500
 Fund
Tom Lantos for Congress    Tom Lantos               05/05/05       1,000
Friends of Robert C. Byrd  Robert Byrd              06/30/05       1,000
Carnahan in Congress       Russ Carnahan            06/30/05       2,100
Stabenow for U.S. Senate   Debbie Stabenow          09/30/05       1,000
Bob Casey for              Robert Casey             11/08/05       2,100
 Pennsylvania
Ben Cardin for Senate      Benjamin Cardin          12/05/05         500
John D. Dingell for        John Dingell             12/14/05         500
 Congress
Harold Ford for Senate     Harold Ford              05/17/06       1,000
Sheldon Whitehouse for     Sheldon Whitehouse       05/24/06       4,200
 Senate
------------------------------------------------------------------------
    Total                                                         34,900
------------------------------------------------------------------------

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: N/A.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: N/A.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: N/A.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I will remain a partner of Oldaker, Biden and Belair, LLP; remain 
proprietor of Owasco, P.C.; remain Managing Member of LBB Holdings USA 
LLC; and remain on the Board of Directors of the National Prostate 
Cancer Coalition. In addition, I have an agreement of compensation for 
prior work with the law firm of Krupnick, Campbell; and will serve as 
interim CEO of Paradigm Global Advisors (a fund that invests in hedge 
funds that LLB holdings is currently looking at acquiring).
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I will remain a partner of Oldaker, Biden and Belair, LLP; remain 
proprietor of Owasco, P.C.; remain Managing Member of LBB Holdings USA 
LLC; and remain on the Board of Directors of the National Prostate 
Cancer Coalition. In addition, I have an agreement of compensation for 
prior work with the law firm of Krupnick, Campbell; and will serve as 
interim CEO of Paradigm Global Advisors (a fund that invests in hedge 
funds that LLB holdings is currently looking at acquiring).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: N/A.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: I know of none.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a registered lobbyist I have lobbied on behalf of not-for-profit 
Universities and Hospitals seeking Federal appropriations dollars.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will notify Amtrak's General Counsel immediately of any potential 
conflicts of interest and find a way to resolve them.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    In June 1988, I was cited for possession of a controlled substance 
in Stone Harbor, NJ. There was a pre-trial intervention and the record 
was expunged.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination:
    N/A.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much, we'll now turn to you 
Ms. McLean, Senator Lugar has, as I said has sent his statement 
here, he's involved in another briefing right now and I'll read 
it for the information for those who are here.
    He indicates he is pleased to have the opportunity to 
introduce you to this Committee and states that you've had many 
years of experience in Federal Government, specifically working 
at Transportation Policy. After receiving your Bachelor's and 
Master's degree from Indiana University School of Public and 
Environmental Affairs, you joined the U.S. Department of 
Transportation as a Program Analyst, you've built your 
background in transportation to become a Budget Examiner on 
transportation issues at the Office of Management Budget. From 
1993 to 1999, you served as a staffer on the House Committee on 
Transportation and Infrastructure, and after 2001 you've been 
nominated to serve as Assistant Secretary for Budget Programs 
and Chief Financial Officer for the U.S. Department of 
Transportation.
    You served also, as the Program Manager and lecturer for 
the Indiana University's School of Public and Environmental 
Affairs, Washington Leadership Program and you served as a 
teacher and mentored several students who interned in Senator 
Lugar's office and on the Senate Committee of Foreign Relations 
staff. I'm told that you're joined today by your husband and 
two daughters, would we please have you introduce them.
    Ms. McLean. Thank you, yes. I'm here with my husband, 
Marcus Peacock and my two daughters, May and Iona, who are 
nine, and my sister, Robin, Miles McLean and my niece Hailey.
    The Chairman. Thank you very much, we'll print this 
representation of Senator Lugar on the record before, instead 
of what I said, but was pleased to hear from you.

  STATEMENT OF DONNA R. McLEAN, NOMINEE TO BE A MEMBER OF THE 
                      AMTRAK REFORM BOARD

    Ms. McLean. Well, thank you, Mr. Chairman and members of 
the Committee. It's an honor for me to appear before you today 
and to have been nominated by President Bush to serve on the 
Amtrak Reform Board. If confirmed, I look forward to working 
closely with this Committee on Amtrak issues.
    All of my career, including 15 years of Federal service, I 
have focused on transportation policy. Over these years, we 
have all seen transportation, our transportation systems become 
more and more congested. More recently, we've seen a 
significant leap in oil prices. It's unclear how the increasing 
transportation congestion, along with the increase in fuel 
prices will reshape our transportation system.
    However, these dynamics mean that the viability of our 
inter-city passenger rail system is more important than ever. 
If confirmed, I look forward to helping Amtrak better position 
itself to play an improved role in our transportation network. 
Amtrak, the business, has made some significant strides over 
the past several years. Amtrak is now following generally-
accepted accounting principles, Amtrak is investing more in its 
capital needs, Amtrak is focused on improving on-time 
performance, and Amtrak's ridership is growing. Amtrak is 
working daily to improve its service.
    If confirmed, I pledge to work closely with this committee, 
to strive for a more effective and efficient Amtrak. Thank you 
again for asking me to appear before you today, and I will be 
happy to answer any questions you might have.
    [The biographical information of Ms. McLean follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Donna Rae 
McLean.
    2. Position to which nominated: Member of the Amtrak Reform Board.
    3. Date of Nomination: May 16, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: 300 Independence Ave, SE, Washington, DC 20003.

    5. Date and Place of Birth: July 9, 1964; St. Louis, Missouri.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Husband: Marcus C. Peacock, Deputy Administrator, U.S. 
        Environmental Protection Agency.

        Daughter: Iona Rae McLean, 9 years old.

        Daughter: Mey Rose McLean, 9 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        May 1986, BA, Political Science and Anthropology, Indiana 
        University.

        May 1989, MPA, Public Finance and Policy Analysis, Indiana 
        University, School of Public and Environmental Affairs.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Assistant Secretary for Budget and Programs and Chief Financial 
        Officer, U.S. Department of Transportation (May 2001 to 
        September 2003).

        Assistant Administrator for Financial Management, U.S. Federal 
        Aviation Administration (August 1999 to May 2001).

        Professional Staff Member, U.S. House of Representatives, 
        Transportation and Infrastructure Committee, Aviation 
        Subcommittee (February 1993 to August 1999).

        Budget Examiner, U.S. Office of Management and Budget.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Working on a PriceWaterhouseCoopers contract for consulting 
        services for the National Transportation Safety Board.

        Working on a project with The Staubach Company for consulting 
        services for the Department of Homeland Security.

        Working on a project with BAE for consulting services for the 
        Federal Aviation Administration.

        Working on a project with Cornerstone Government Affairs, LLC 
        with the city of Springfield and the Springfield/Branson 
        Airport, MO.

        August 2004, I served on a Presidential Emergency Board (No. 
        238) investigating the dispute between Southeastern 
        Pennsylvania Transportation Authority and the United 
        Transportation Union--it was settled by the two parties without 
        Board action.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Donna McLean Associates, LLC, owner since September 2003.

        Indiana University, Adjunct Professor, School of Public and 
        Environmental Affairs, Washington Leadership Program (January 
        2004 to present).

        Current consulting contracts with the following companies: The 
        Boeing Company, PriceWaterhouseCoopers, Project ACTA.

        Recent consulting contracts with The Staubach Company, Unite 
        Alliance, and BAE.

        Past consulting contracts with: The National Business Aviation 
        Association, EDS, Fund for American Studies.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex. race, color, religion, 
national origin, age or handicap.

        Member of the Board of Visitors, Indiana University, School of 
        Public and Environmental Affairs, current since 2003.

        AERO Club Member since 2004.

        Member of the Board of Capital Hill Arts Workshop, Capital Hill 
        Youth Chorus since 2004.

        Girl Scout Leader since 2004.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        3/05--$500, Friends of Conrad Burns.
        6/05--$1,000, Knollenberg for Congress Committee.
        4/05--$1,000, Hal Rogers for Congress.
        8/04--$500, Hal Rogers for Congress.
        4/04--2,000, Bush-Cheney 2004 Inc.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        U.S. Department of Transportation 911 medal; awarded ``For 
        Service and Sacrifice to the United States of America During 
        and After the Tragic Events of September 11, 2001.''

        Selected by the School of Public and Environmental Affairs at 
        Indiana University as the Alumni of the Year; 2001.

        National Academy of Sciences, Transportation Research Board, 
        Graduate Scholarship; 1989.

        Indiana University, School of Public and Environmental Affairs; 
        Full Tuition Scholarship for Masters Program, elected to Pi 
        Alpha Alpha honor society, and received Chancellor Wells Book 
        Award for Academic Achievement; 1986-1989.

        Elected to Pi Sigma Alpha, honor society for political science, 
        Indiana University; 1986.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    All of my appearances before Congress have been while employed by 
the executive branch.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Since this is a volunteer position, I will maintain all of my 
existing contracts, including contracts with PricewaterhouseCoopers, 
The Boeing Company, Indiana University, Project ACTA. None of these 
contracts involve railroad issues and therefore, do not present a 
conflict of interest. However, if either the DOT general counsel or 
Amtrak general counsel raises a concern, we will work out something 
that is agreeable to all parties.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? See the 
question above, #1.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have discussed my contracts with executive branch counsel, and do 
not believe any of my investments, obligations, liabilities, or other 
relationships present a conflict of interest for this position.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Since 2003, when I stared Donna McLean Associates, LLC, I have not 
had any contracts involving railroad issues. While I was the Assistant 
Secretary for Budget and Programs and the Chief Financial Officer at 
the U.S. DOT, I was involved in several Amtrak-related issues. While 
holding this position, I was involved in Amtrak's application and 
approval of a Railroad Rehabilitation Infrastructure (RRIF) loan. In 
the case that the 2002 RRIF loan would arise, I would need to consult 
with the Amtrak counsel on whether or not I would need to be recused 
from this topic.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.

        Supporting the President's Budget Request for the SASO program 
        on behalf of PricewaterhouseCoopers (on-going).

        Supporting efforts to maintain the President's Budget Request 
        for the U.S. Merchant Marines Academy on behalf of Project ATCA 
        (on-going).

        Exploring ways to certify unmanned aerial vehicles in the air 
        traffic system (February-April 2006).

        Supporting efforts of the Springfield/Branson Airport (2005).

        Exploring the ability to re-open National Airport to general 
        aviation aircraft, on behalf of the National Business Aviation 
        Association (2004-2005).

        During my tenure as Assistant Secretary of Budget and Programs 
        and Chief Financial Officer at the U.S. DOT, I did communicate 
        with Congress (testimony, meetings, telephone calls) in support 
        of the President's agenda.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    At this time, I do not anticipate any significant conflict of 
interest issues. However, if something arises or if someone raises any 
questions, I will work with the DOT and Amtrak general counsel to 
resolve any conflict of interest issues.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association. disciplinary committee, or other 
professional group? See answer to number 6 below.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I do not know of any additional 
relevant information.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so. please explain.
    An EEO complaint was filed while I was the Assistant Administrator 
at FAA for Financial Services. I, along with other top FAA managers, 
decided to restructure a troubled program--the project was called 
DELPHI and involved transitioning to a new Oracle based accounting 
system. We restructured the project as an Integrated Project Team (IPT) 
and brought in an IPT lead--which happened to be an African American 
woman.
    A member of the current team, Ms. Roberson, asked to be removed 
from the team (she was unhappy with the restructuring). Although we 
asked her to stay, she insisted that she wanted to leave the team. We 
agreed to reassign her to an area of her request, we did not reduce her 
pay, or demote her, or reprimand her in any way.
    On December 20, 2000, Ms. Roberson filed an EEO Complaint claiming 
that she was ``replaced as project manager of the DELPHI project, and 
functionally demoted due to my race (African American) and age (over 
40-52) by agency management . . . .''
    I offered to try to settle this situation through mediation, which 
began while I was at FAA. However, it was settled after I left the FAA. 
I do not know what the final agreement was.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much. Our next nominee is John 
Hill to be Administrator of the Federal Motor Carrier Safety 
Administration under the Department of Transportation. Senator 
Lugar also submitted a statement on your behalf, which I'll 
print in the record, let me summarize it.
    It states that after graduating from Taylor University with 
a Bachelor's degree in 1973, Mr. Hill began a long and 
distinguished career with the Indiana State Police and rose to 
the rank of Major and served as the Commercial Vehicle 
Enforcement Division Commander and also led the Field 
Enforcement and Logistics Division of the Indiana State Police. 
In 2003, Mr. Hill was selected to be Chief Safety Officer and 
Assistant Administrator of the Federal Motor Carrier Safety 
Administration.
    He also served on the American Association of Motor Vehicle 
Administration Task Force and is currently the acting Deputy 
Administrator of the Federal Motor Carrier Safety 
Administration. I'll print the rest of it in the record, Mr. 
Hill, and we'd be pleased to introduce whoever might be with 
you and also your statement, please.
    Mr. Hill. Thank you Mr. Chairman, I would be pleased to 
introduce my family, but they're unable to be here today. We 
had previously planned a wedding reception this weekend, so my 
wife and family are taking care of that business, so they are 
here hopefully on the Internet.
    The Chairman. You can hold one of Mr. Biden's kids and let 
his dad go back to work.
    [Laughter.]

            STATEMENT OF JOHN H. HILL, NOMINEE TO BE

       ADMINISTRATOR OF THE FEDERAL MOTOR CARRIER SAFETY

          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Hill. Let me read to you my statement, Mr. Chairman. 
Mr. Chairman and Members of the Committee, I am honored to 
appear before you today to be the President's nominee to become 
the Administrator of the Federal Motor Carrier Safety 
Administration.
    Thank you for this opportunity to introduce myself and to 
briefly share with you my vision for the Agency. For the past 3 
years I have served as the Assistant Administrator and Chief 
Safety Officer of FMCSA. During this time I've had the 
opportunity to work with our state and local partners. I've 
also had the opportunity to collaborate with Congressional 
staff to establish safety priorities for the Agency. If 
confirmed, I will work closely with Congress to continue to 
improve key program areas.
    Before my service with the Department of Transportation, I 
spent nearly 29 years with the Indiana State Police, including 
several years dedicated exclusively to motor carrier safety. A 
key lesson I learned in Indiana that has resonated even louder 
since joining FMCSA is that the goal of commercial vehicle 
safety depends on careful cooperation and open communication. 
Recent years of domestic economic expansion and heightened 
demand on our transportation system have created new 
challenges. Increased need for freight and passenger movement 
must be guided by increased safety on our highways.
    This is achievable, but the solutions are not simple. The 
industry is immense, over 685,000 carriers that FMCSA regulates 
and it is a diverse industry, with lots of different types of 
carriers and over 11 million commercial vehicle drivers. To be 
successful, state and local governments, with their enforcement 
expertise and dedicated work forces, must be fully engaged at 
every level of the safety program. The U.S. Department of 
Transportation must continue to work with Congress to provide 
guidance, tools, and resources to those governments. And the 
motor carrier industry, safety advocate groups, shippers, 
commercial vehicle manufacturers, and logistics providers must 
all collaborate to become joint problem-solvers, not simply 
critics of each other.
    If confirmed, I will work hard to bring these stakeholders 
together and encourage cooperation. I will also work with the 
other surface administrations within the Department of 
Transportation, specifically the Federal Highway Administration 
and the National Highway Traffic Safety Administration to build 
upon Secretary Mineta's unified approach to safety planning 
initiatives, data improvements, and guidance to the states. 
While working collaboratively to enhance safety, I will 
remember the statutory authority Congress has provided.
    If confirmed, I will continue to strengthen our agency's 
enforcement activities. My extensive experience in law 
enforcement has taught me that good laws are effective when 
obeyed. For those who do not voluntarily comply with safety and 
commercial carrier regulations, we will target enforcement to 
promote compliance. FMCSA writes regulations, we conduct 
research, educate the public, distribute grants, promote safety 
results through enforcement, but it is all aimed at one clear 
and simple mission; to reduce crashes, injuries and fatalities 
involving large trucks and buses. If confirmed by the Senate, I 
am committed to improving these activities by leading the 
dedicated employees of the FMCSA to accomplish this mission. 
Thank you and I'll be happy to answer your questions.
    [The biographical information of Mr. Hill follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): John Harvey 
Hill.
    2. Position to which nominated: Administrator, Federal Motor 
Carrier Safety Administration.
    3. Date of Nomination: May 16, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: 400 7th Street SW, Room 8202, Washington, DC 20590.

    5. Date and Place of Birth: August 24, 1951; New Albany, Indiana.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Nancy Ruth (Dylhoff) Hill, physical trainer, Curves of 
        Arlington (Women's Fitness), part-time employment.

        Children: Two sons--Nathan John Hill, age 31; Micah John Hill, 
        age 29.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Arts, 1973, Taylor University.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Indiana State Police--Captain, Acting Commander, Enforcement 
        Division, 1986-1988.

        Indiana State Police--Major, Commander, Logistics Division, 
        1988-1989.

        Indiana State Police--Major, Commander, Commercial Vehicle 
        Enforcement Division, 1989-1994; 2000-2003.

        Indiana State Police--Major, Commander, Field Enforcement, 
        1994-2000.

        U.S. Department of Transportation, Federal Motor Carrier Safety 
        Administration--Assistant Administrator/Chief Safety Officer, 
        2003-Present.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        American Association of Motor Vehicle Administrators (AAMVA)--
        Chairman of the Law Enforcement Committee, 2000-2003.

        American Association of Motor Vehicle Administrators subsidiary 
        organization--AAMVAnet, Inc.--Member of Board of Directors 
        2001-2002.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        The American Association of Motor Vehicle Administrators 
        (AAMVA), I served as Chairman of their Law Enforcement 
        Committee (2000-2003), several executive-planning groups and as 
        a board member of their affiliated subsidiary organization--
        AAMVAnet, Inc. (2001-2002).

        Indiana State Police Pioneers--fraternal organization of 
        retired Indiana State Police employees (2003-Present); served 
        as a member and no leadership responsibilities.

        Indiana State Police Alliance--professional organization of 
        active Indiana State Police Officers (1996-2003); served as a 
        member and no leadership responsibilities.

        Aircraft Owners and Pilots Association (AOPA)--(2000-2003); a 
        member only.

        Community Church of Greenwood--(1986-2003); served as an Elder 
        (Board of Directors) and Chairman of the Board, 1992.

        Immanuel Bible Church--(2003-Present); member only.

        AMF International--(1986-1999); a religious organization, 
        mission outreach, board of trustees.

        Retired Troopers Association--a fraternal association for 
        retired troopers from across the country (2005-Present); a 
        member only.

        Republican National Committee (RNC)--member only (2002-
        Present).

        These organizations do not restrict membership on the basis of 
        sex, race, color, religion, national origin, age or handicap.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        McIntosh for Governor--$500.
        Indiana Republican Party--$600.
        Republican National Committee--$1,550.
        Bush-Cheney 2004--$2,100.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Distinguished Alumni for Personal Achievement, Taylor 
        University, 2000.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I assisted with and authored articles in the Indiana State Police 
Alliance magazine and AAMVA's Move magazine. These articles pertained 
to my role as a police officer, traffic safety expert (e.g., the role 
of motor vehicle data in roadside enforcement) or department commander 
with responsibilities for a specific aspect of the Indiana State Police 
mission (e.g., article on department's aviation unit, marijuana 
eradication program or riot control unit--all of which I had 
responsibility to manage). Although available to the public, the 
circulation of these periodicals was generally limited to the law 
enforcement or motor vehicle administrator community.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    As a retiree from the Indiana State Police Department, I am 
provided a monthly pension consistent with Indiana State Police 
Department Pension Trust guidelines.
    When I was a state employee, I participated in State of Indiana's 
Public Employees Deferred Compensation Plan (an IRS 457 Plan--the plan 
is referred to as Hoosier Start). After leaving state government in 
2003, I elected to maintain the funds indefinitely in the Plan; 
however, I receive no continuing contributions from the state. I may 
elect distribution of the funds at any time consistent with IRS 
guidelines.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the 
Deputy General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the Deputy General Counsel's opinion letter.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    Yes. In the Indiana State Police, when I was a commander of the 
Commercial Vehicle Enforcement Division in the early 1990s (I cannot be 
more specific on the date) a female employee disliked the management 
decision about scheduling and work reporting times. She along with 
other employees filed a complaint against her first line supervisor 
accusing him of treating her and the other employees differently based 
on their race. I affirmed the supervisor's decision and the employee 
filed a similar complaint against me. The department's Civil Rights/
Equal Employment Officer (EEO) investigated it; the complaint was not 
substantiated and was determined to be unfounded.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you. Mr. Rosenker, you were introduced, 
were all of your family introduced?
    Mr. Rosenker. Mr. Chairman, my in-laws are here. Mr. and 
Mrs. Jack Balden they're from New Jersey and I'm delighted to 
have them with me. Thank you, sir.
    The Chairman. Do you have a statement, sir?

 STATEMENT OF MARK V. ROSENKER, NOMINEE TO BE CHAIRMAN OF THE 
                 NATIONAL TRANSPORTATION BOARD

    Mr. Rosenker. A brief one, sir. Mr. Chairman, distinguished 
members of the Committee. I am pleased and honored to appear 
before your Committee for the third time during this 
Administration as a nominee. I'm grateful to President Bush for 
this nomination to be Chairman of the National Transportation 
Safety Board and particularly his confidence in my ability to 
continue to serve our Nation in this unique and critically 
important position. I'd also like to thank Senator George Allen 
from my home state of Virginia for the statement that he 
submitted for the record and his support for the third time. 
I'm honored that my friend, Congressman Darrell Issa of 
California, has taken the time from his busy schedule to offer 
his support and his flattering introduction.
    For more than 3 years, I've been privileged to serve as a 
Member, Vice Chairman and most recently Acting Chairman of this 
small, but well-known and respected Federal agency. The NTSB, 
for nearly four decades, has been at the forefront of 
transportation safety issues, the protector, if you will, of 
America's vital transportation system. NTSB is not only our 
Nation's premier accident investigation agency, but also enjoys 
a well-earned reputation as the most effective and 
authoritative independent safety body in the world. I've said 
this before and will continue to say, the professional men and 
women who make up the NTSB are the best in the business.
    I would also like to recognize my fellow board members, 
Member Debbie Hersman, and Member Kitty Higgins, who are here 
today and I thank them for their support. Whether dealing with 
determining the probable cause of an accident, recommending 
safety improvements, or deciding on Federal enforcement 
actions, we routinely join together with one objective in mind, 
raising the standard of safety within our Nation's 
transportation community.
    If confirmed as Chairman, I commit to you and the American 
people, I will do my best to effectively and efficiently manage 
this important agency, making sure that its ability to carry 
out its critical mission is never compromised. Mr. Chairman, 
distinguished Members of the Committee, I am sure you will 
agree, America's transportation industry is one of its most 
important economic sectors and as such protecting the vitality 
of this sector by ensuring the safe movement of people and 
commerce is the primary and most crucial role of the NTSB.
    If confirmed, I will be honored to lead this agency and its 
highly competent team of transportation safety professionals 
and advocates. I look forward to answering your questions.
    [The biographical information of Mr. Rosenker follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Mark Victor 
Rosenker.
    2. Position to which nominated: Chairman, National Transportation 
Safety Board.
    3. Date of Nomination: April 24, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: NTSB, 490 L'Enfant Plaza East, SW, Washington, DC 
        20594.

    5. Date and Place of Birth: 12/08/46; Baltimore, MD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Heather Beldon Rosenker, Senior Vice President, Fleishman-
        Hillard Public Relations.

        No children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Baltimore Community College, 1965-1966.

        University of Maryland, 1966-1969, BA Communications.

        University of Maryland, University College, Graduate Study 
        1970-1971.

        Department of Defense Information School, Graduate, 1969.

        Air Command and Staff College, Extension Course Institute, 
        Graduate, 1983-1985.

        Air War College, Associate Studies Program, Graduate, 1988-
        1990.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
        Member, Vice Chairman and Acting Chairman National 
        Transportation Safety Board, March 2003-present.

        United States Air Force and Air Force Reserve, Major General, 
        Mobilization Assistant to the Commander, Air Force Reserve 
        Command, (current rank and assignment) June 1969-present.

        Department of Transportation, Transportation Security 
        Administration, Program Manager, Special Projects Office, 
        November 2002-March 2003.

        The White House, Deputy Assistant to the President and Director 
        of the White House Military Office, January 2001-November 2002.

        United Network for Organ Sharing (UNOS), Assistant Executive 
        Director and Managing Director of the Washington, DC Office. 
        November 1999-January 2001.

        Electronic Industries Alliance, a.k.a. (Electronic Industries 
        Association) Corporate Officer and Vice President, Public 
        Affairs, February 1977-October 1999.

        Motorized Bicycle Association, a.k.a. (American Moped 
        Association), Director of Communications, January 1975-January 
        1976.

        Daniel J. Edelman Public Relations, Account Executive, 
        September 1973-January 1975. Represented American Safety Belt 
        Council, Motorcycle Safety Foundation, and the Safety Helmet 
        Council of America.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        United Network for Organ Sharing (UNOS)--Assistant Executive 
        Director for External Affairs and Managing Director, 
        Washington, D.C. office.

        Boat Slip Rental Property--50 percent interest; sold January 
        2002.

        Brat Pack Investment Club--20 percent interest. Sole holding 
        1,295 shares of ADC Telecommunications. (Divested my holdings 
        and dissolved the Investment Club in Dec., 2005).

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Army Navy Club, Washington, D.C.--1999-present.
        Andrews AFB Officers Club, Andrews AFB, MD--1969-present.
        Capitol Hill Club--1973-2000.
        Bryce Resort, Basye, VA--1986-present.
        Military Order of the Carabao--2001-present.
        Aero Club, Board Member--2005-present.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        2004--Bush-Cheney Campaign--$2,000.
        2000--Darrell Issa for Congress--$500.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        University of Maryland Centennial Distinguished Graduate, 2001.

        American Battle Monuments Commission Distinguished Service 
        Medal.

        USAF Distinguished Service Medal.

        Legion of Merit, Meritorious Service Medal (1 oak leaf cluster) 
        USAF Commendation Medal.

        Department of Defense Achievement Medal.

        USAF Achievement Medal (1 oak leaf cluster).

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated--Do not attach copies of these publications unless otherwise 
instructed.
    All speeches that I have given relevant to transportation safety 
may be viewed on the NTSB website.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony. None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During my appointment as a Member of the NTSB, I have been a strong 
transportation safety advocate and on numerous occasions invited to 
testify before state legislatures, particularly on issues of highway 
and recreational boating safety. In addition, the Board has made a 
significant number of recommendations to Federal agencies, state and 
local governments, organizations, operators and manufacturers 
concerning regulations or safety issues dealing with various modes of 
transportation.
    During my career as chief spokesman for the Electronic Industries 
Alliance, representing the U.S. electronics industry, and the United 
Network for Organ Sharing, UNOS, (the national organ transplant 
network), I have made numerous statements and answered a myriad of 
media queries on a host of issues having to do with the laws, 
regulations, and policies of those two diverse communities. Some of the 
major issues I spoke out in support of included: NAFTA, Making 
Permanent the R&D Tax Credit, Improvement of Export Controls, Rewrite 
of Circular A76, privatization and outsourcing, Federal Rules 
pertaining to Organ Donation and Allocation. My role was not that of a 
registered lobbyist.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As a senior officer in the Air Force Reserve, if confirmed, I will 
continue to recuse myself from any investigation involving an USAF 
aircraft unless the Board's General Counsel found my participation 
necessary and appropriate. I believe there are no other issues that 
would constitute a conflict of interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Detained in 1965 at the age of 18, along with two friends, in 
Atlantic City, NJ, malicious mischief, charges dismissed. Detained in 
1966 at the age of 19, along with one friend, in Baltimore, MD, 
possession of beer below age of 21, charges dismissed.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    During my employment as an officer of EIA, the Association was 
involved in routine civil litigation. I was never a party, nor a 
witness in any of those proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Our final nominee is Andrew B. Steinberg of 
Maryland to be Assistant Secretary of Transportation. It's my 
understanding you have, under your responsibility, the 
development, articulation, and review of policies for economic 
issues and domestic and international transportation. Do you 
have a family here with you, Mr. Steinberg?
    Mr. Steinberg. Yes, I do, Mr. Chairman, behind me to my 
right is my wife, Roxann, immediately behind me is my son, 
Malcolm, who is age 11 and to my left is my daughter, Madeline, 
who is age 13.
    The Chairman. Thank you, well we do welcome all the family 
members and we're happy that you'd bring them here. We'd like 
to have your statement, please.

        STATEMENT OF ANDREW B. STEINBERG, NOMINEE TO BE

           ASSISTANT SECRETARY OF TRANSPORTATION FOR

               AVIATION AND INTERNATIONAL AFFAIRS

    Mr. Steinberg. All right, Chairman Stevens, Senator 
Lautenberg, members of the Committee, thank you for the 
opportunity to be considered for the position of Assistant 
Secretary of Transportation for Aviation and International 
Affairs. I'm honored that President Bush and Secretary Mineta 
asked me to continue serving the public in this capacity and if 
confirmed, I'll work hard to earn the confidence of every 
Member of this Committee. I am also grateful for the support 
I've received over the last 3 years from FAA Administrator 
Marion Blakey, and look forward to a close working 
relationship.
    I couldn't be here today, of course, without the love, 
friendship and encouragement of my family who always remind me 
that public service is a high privilege. I'd also like to thank 
my father, Irwin Steinberg, and my late mother, Molly, for 
encouraging me to seek out challenges like these and 
acknowledge my late father-in-law, Bob Anderson, for the career 
he spent as an engineer and attorney at the Boeing Company.
    My own involvement with the airline industry started about 
twenty years ago as a young lawyer in private practice working 
on an antitrust case, I immersed myself into airline economic 
issues and saw how fascinating but demanding, this industry is. 
I later worked in-house for an airline as a general counsel of 
a company that sells reservation systems and technology 
services to travel companies, and as an executive at an 
Internet travel site. As the FAA's Chief Counsel, I have tried 
to broaden my horizons, handling a range of issues affecting 
safety capacity, manufacturing and general aviation. During my 
career, I've also been fortunate to work on international 
problems, like code-sharing, overseas joint ventures, and 
market access.
    My excitement over the prospect of this new role is 
enhanced by the many challenges we face in aviation and in the 
growing global marketplace for transportation services. As you 
know, the purview of the office I am seeking extends beyond 
aviation, to all modes of transportation.
    If confirmed, I will focus my energies on three areas; 
first, given the vital role that air transportation plays in 
this country, the health of the domestic industry must remain a 
national priority. We shouldn't be reluctant to re-examine 
policy assumptions or the myriad regulatory burdens we impose. 
An industry that perennially either loses money or makes 
suboptimal returns can't sustain quality and breadth of service 
your constituents expect.
    Second, reauthorization of our aviation programs next year 
provides an opportunity to address many long-term issues, and I 
hope to assist you in finding the right solutions. It will be 
particularly important to enable the Next Generation Air 
Transportation system which promises to reduce congestion and 
make air travel more accessible and affordable everywhere.
    Third, as Secretary Mineta has demonstrated, we must remain 
vigilant in protecting U.S. leadership in all modes of 
transportation services and manufacturing, promoting safety in 
open markets throughout the world. There's a lot of opportunity 
I think, for American companies in markets that are still 
developing their transportation infrastructure. DOT has a key 
role to play here in promoting common technological and safety 
standards. Clearly there are no easy issues, here. But, I 
promise you an open mind and a fresh perspective. I've learned 
over the years to seek common ground and practical solutions 
among stakeholders and truly believe that this committee and 
its staff have much to offer me.
    If confirmed, I look forward to working together. I'd ask 
that my witness statement, Mr. Chairman, be submitted for the 
record and would be happy to answer any questions.
    [The prepared statement and biographical information of Mr. 
Steinberg follows:]

  Prepared Statement of Andrew B. Steinberg, Nominee to be Assistant 
   Secretary of Transportation for Aviation and International Affairs

    Chairman Stevens, Co-Chairman Inouye, distinguished members of the 
Committee, thank you for the opportunity to be considered for the 
position of Assistant Secretary of Transportation for Aviation and 
International Affairs. I was honored to be asked earlier this year by 
President Bush and Secretary Mineta to continue serving the public in 
this important capacity and if confirmed, I will work hard to earn the 
confidence of every Member of this Committee. As I pursue this 
position, I am also grateful for the support I received over the last 3 
years from FAA Administrator Marion Blakey, and look forward to a close 
working relationship with the FAA.
    I could not be here today without the love, friendship and 
encouragement of my wife, Roxann, and my two children, Madeline and 
Malcolm, who are here today and always remind me that public service is 
a high privilege. I would also like to thank my father, Irwin 
Steinberg, and my late mother, for encouraging me to seek out such 
challenges and acknowledge my late father in law, Bob Anderson, for the 
career he spent as an engineer and lawyer at the Boeing Company.
    My own involvement with the airline industry started over twenty 
years ago when, as a young attorney working on an antitrust case for a 
major air carrier, I immersed myself into airline economic issues and 
saw how incredibly fascinating, competitive, and demanding, this 
industry can be. I later worked in-house for an airline, on a wide 
variety of commercial, environmental, and employment law issues, became 
the general counsel of a company providing computerized reservation 
systems and technology services to travel agents and airlines, and 
finally worked as a business executive and lawyer at a leading consumer 
online travel site. As Chief Counsel at the FAA, I have broadened my 
horizons through the many legal issues affecting aviation safety and 
capacity and through exposure to aerospace, GA and business aviation. 
I've been fortunate during my career to work on international business 
problems, ranging from airline code-sharing, to the formation of 
overseas joint ventures, and European competition law. Soon after I 
joined the FAA I helped settle a longstanding dispute with several 
foreign airlines over the assessment of overflight fees. We agreed to 
set up a rulemaking committee to assist us in setting the fees and the 
airlines abandoned years of litigation and began paying fees without 
protest.
    The excitement I feel over the prospect of serving in this new 
capacity is only enhanced by the opportunity it presents to address the 
many daunting challenges this country faces not only in the aviation 
sector but also in the growing global marketplace for transportation 
services. As Members of this Committee well know, the purview of the 
Office of Aviation and International Affairs extends beyond aviation, 
and includes the development and coordination of international 
transportation policy involving all modes of transportation. If 
confirmed, I will focus my energies on three main areas: the state of 
the domestic air transportation industry; reauthorization of our 
aviation programs and their role in facilitating the transition from 
today's ground-based air traffic system to a satellite-based one; and 
ongoing U.S. leadership in transportation services and manufacturing to 
promote safety, open markets, and enhance trade throughout the world. 
None of these arenas has partisan lines, thus I plan to work closely 
with all of you to advance the Nation's common interests.
    Given the vital role air transportation plays in this country, a 
healthy domestic airline industry always is a national priority. Having 
been in the midst of a fundamental restructuring for some years, the 
industry is showing modest signs of recovery. Indeed, the overwhelming 
losses of network carriers obscure their own dramatic progress in 
cutting their costs and the fact that smaller sectors of the industry 
remain reasonably profitable. It is far too early, however, to declare 
that the industry as a whole is ``out of the woods.'' We should, 
therefore, remain open to the possibility that the industry faces 
structural obstacles to long term success. (For example, while much 
attention has been paid to the role of high fuel prices, other 
industries such as utilities have similar cost inputs but not the same 
fate.) Because some of these obstacles may be linked to aviation policy 
matters, we should be willing to test our underlying policy assumptions 
and to examine the costs and benefits of the myriad regulatory burdens 
we impose on airlines (some of which hold over from the CAB). These are 
not academic issues: an industry that perennially either loses money or 
makes suboptimal returns cannot, as we are seeing, provide the quality 
and breadth of service your constituents expect; the financial woes of 
the network airlines in recent years has meant a decline in service to 
smaller communities. Indeed, the contrast between passenger and cargo 
carriers is striking, as the latter remain highly profitable and 
innovative, producing good value at low prices.
    Reauthorization next year provides an occasion to address such 
long-term issues, and I hope to assist you in identifying the right 
solutions. I am encouraged by the efforts of the Joint Planning and 
Development Office to spearhead the adoption of the next generation 
transportation system (NGATS), which promises the same kind of radical 
improvements in air travel that the Internet produced for 
communications. This system is a key part of the Secretary's aggressive 
plan to reduce transportation congestion. Moreover, by combining 
increases in airspace capacity created by NGATS, the existing 
infrastructure of 5,000 public use airports (currently underutilized), 
and the new breed of very light jets, we have a unique opportunity to 
make air travel much more accessible and affordable for all parts of 
the country, while facilitating growth in business travel. But this 
system will not come about unless we find creative, bipartisan 
solutions to the funding challenges we face, such as greater reliance 
of public-private partnerships.
    We should all be proud of the leading role the United States enjoys 
in the global market for transportation products and services but also 
vigilant about protecting that lead. Our aerospace industry today 
enjoys a positive balance of trade; ensuring that it competes on a 
level playing field is a high priority. Across all modes of 
transportation, there will be many opportunities for U.S. companies to 
provide their expertise in overseas markets still developing a 
transportation infrastructure, and DOT has a role to play in promoting 
common technological and safety standards. I hope to build on the 
successes of the Secretary in opening up transport markets overseas, as 
we also seek fully liberalized trading arrangements with all our major 
aviation partners.
    In closing, I know there are many tough issues to tackle here. I 
have reached no conclusions about the right solutions to the problems 
that exist and promise an open mind and fresh perspective. Just as 
importantly, my years in the industry have taught me this: wherever 
possible we should seek common ground among our stakeholders. This 
Committee and its expert professional staff have many years of 
experience and much wisdom to offer me, as we approach these issues. 
Should I be confirmed, I truly look forward to working together.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Andrew Bart 
Steinberg.
    2. Position to which nominated: Assistant Secretary of 
Transportation for Aviation and International Affairs.
    3. Date of Nomination: February 10, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Federal Aviation Administration Office of the Chief 
        Counsel, 800 Independence Avenue, Room 900-E, Washington, DC 
        20591.

    5. Date and Place of Birth: October 12, 1958; Perth Amboy, New 
Jersey.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Roxann Steinberg (Homemaker); children: Madeline Steinberg (Age 
        13), Malcolm Steinberg (Age 10).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Princeton University; A.B., 1980.
        Harvard Law School; J.D., 1984.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        American Airlines, Inc. (1990-1996): Attorney (1990-91); Senior 
        Attorney (1991-94); Associate General Counsel (1994-96).

        Sabre, Inc. (1996-2000): Senior Vice President, General Counsel 
        and Corporate Secretary (1996-98); Executive Vice President, 
        General Counsel and Corporate Secretary (1998-2000).

        Travelocity.com, Inc. (1999-2002): Executive Vice President--
        Administration, General Counsel and Secretary.

        Federal Aviation Administration, U.S. Department of 
        Transportation (2003-present): Chief Counsel.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Travelocity.com, Inc. (1999-2002): Executive Vice President--
        Administration, General Counsel and Secretary.

        Sabre, Inc. (2002): Consultant.

        Church & Dwight Co., Inc. (2002-2003): Vice President, General 
        Counsel and Corporate Secretary (resigned upon my appointment 
        to the FAA).

        Computer and Communications Industry Association (2002-03): 
        Director (resigned upon my appointment to the FAA).

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Republican National Lawyers Association (since 2000).

        Boy Scouts of America (since 2000).

        American Bar Association (periodically since 1984).

        Computer and Communications Industry Association; Director, 
        2002-2003.

        State Bars of California (since 1984); Texas (since 1992) and 
        the District of Columbia (since 1994).

        Four Seasons Sports Club, Irving, Texas (1997-2001) None of 
        these organizations restricts membership on the basis of sex, 
        race, color, religion, national origin, age or handicap.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        George W. Bush--$1,000 (2004)
        Wayne Allard--$1,000 (2002)
        Norm Coleman--$1,000 (2002)
        Elizabeth Dole--$1,000 (2002)
        John E. Sununu--$1,000 (2002)
        James Talent--$1,000 (2002)
        Travelocity PAC--$1,629 (2002)
        Travelocity PAC--$917 (2002)
        Sabre PAC--$1,410 (2000)
        Sabre PAC--$1,500 (2000)
        Sabre PAC--$1,483 (1998)
        Sabre PAC--$539 (1997)

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: None.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Air Traffic Modernization: How to Avoid Gridlock,'' ABA Air 
        and Space Law Forum, Spring Meeting (2006).

        ``Legal Aspects of Aviation Safety Oversight,'' Conference on 
        Aviation Regulation in Europe (2005).

        ``Airports and Airlines: Partners or Adversaries,'' ABA Air and 
        Space Law Forum, Annual Meeting (2005).

        ``The Role of Government in the Evolving World of Business and 
        Personal Aviation,'' Airports Council International--NA, Legal 
        Committee Meeting (2005).

        ``The Role of Government in the Evolving World of Business and 
        Personal Aviation,'' Strategic Research Institute, 10th Annual 
        Conference on Corporate Aircraft Transactions (2005).

        ``Government Regulation in the Evolving World of `Personal 
        Aviation,' '' NTSB Bar Association, Aviation and Transportation 
        Law Conference (2005).

        ``History and Future of Flight: Government and the New Personal 
        Aviation Models,'' School of Engineering and Applied Science, 
        Princeton University (2005).

        ``The FAA, Release 1.x: Regulation of the Evolving Personal 
        Business Aviation Models,'' PC Forum, Flight School (2005).

        ``The New Frontier: Regulation of the Evolving Business 
        Aviation Models,'' ABA Air and Space Law Forum (2005).

        Dealing with Airport Congestion: The Regulatory Challenge of 
        Demand Management, Air and Space Lawyer (2005) (co-author).

        ``The FAA Flight Plan: Legal Update,'' ABA Section of 
        Litigation, Aviation Litigation Committee (2004).

        ``Recent FAA Policies and Programs,'' NTSB Bar Association 
        (2004).

        Remarks before the American Association of Airport Executives 
        (2003).

        Remarks before the Travel Management Alliance (2003).

        Remarks before the Airports Council International--NA, Legal 
        Committee Meeting (2003).

        Orbitz Controversy: The Travelocity Perspective, Section of 
        Antitrust Law, Transportation Update (Summer 2002).

        American Bar Association Spring Meeting, Antitrust Section, 
        keynote speaker (2000).

        ``E-commerce,'' IATA Legal Symposium (2000).

        ``Emerging Issues in the Year of Aviation,'' ABA Forum on Air 
        and Space Law (1999).

        ``Monopolization and Predatory Practices,'' ABA Antitrust 
        Section, Antitrust Fundamentals (1994).

        Antitrust Implications of Airline Code-Sharing Alliances, 
        Antitrust Report (1994); Airline Pricing Practices, Antitrust 
        Report (1993).

        Effect of Ch. 11 on Competition in the Airline Industry, 
        Federal Bar Assn. (1993) (co-author).

        Note: Speeches are indicated by quotation marks; publications 
        are italicized.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.

        On April 4, 2001, I testified before the Subcommittee on 
        Courts, the Internet, and Intellectual Property of the 
        Committee on the Judiciary, House of Representatives, 
        concerning business method patents. A written statement was 
        also submitted.

        On October 2, 1998, I testified before the Antitrust 
        Subcommittee of the Senate Judiciary Committee, concerning 
        international antitrust enforcement and the ``positive comity'' 
        referral of an antitrust complaint by the Department of Justice 
        regarding computerized reservation systems to the European 
        Commission. A written statement was also submitted.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have two retirement plans administered by Sabre, Inc., a former 
employer: a 401(K) and a pension plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Deputy General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As general counsel of Travelocity.com and as a consultant to Sabre, 
I participated in various advocacy efforts designed to persuade the 
Department of Transportation and Department of Justice, Antitrust 
Division, to require air carriers and their online joint venture to 
provide access to certain airfare and inventory information to 
competing travel agencies. As Chief Counsel of the FAA, I have assisted 
the agency in presenting Administration positions to the Congress on a 
variety of legislative and policy issues affecting FAA authorization or 
appropriations, including continuation of the FAA contract tower 
program, assessment of user fees on foreign carrier overflights of U.S. 
airspace, and FAA contract negotiations with the air traffic 
controllers union. In addition, in my current capacity, I oversee the 
work of the Assistant Chief Counsel for Legislation, who regularly 
provides technical assistance to the Congress.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Deputy General Counsel's opinion letter.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I served as an officer of three public corporations (Church & 
Dwight Co., Inc.; Travelocity.com Inc.; and Sabre, Inc.). Each of these 
firms had substantial revenues ($.5-$2 billion) and was regularly 
involved in business litigation and administrative proceedings before 
state and Federal agencies. As general counsel, my role was to defend 
the corporation. None of the proceedings involved me personally.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    As the head of a large office at FAA, I am the ``deciding 
official'' in dozens of personnel actions affecting 260 attorneys, 
paralegals and support staff. As is true with the rest of the agency, 
these actions infrequently result in claims challenging the actions 
(e.g., hiring selections, promotions, special assignments, annual 
salary raises) and citing purported employment discrimination or merit-
system principles. In three such matters during my tenure, personnel 
actions I had approved based on recommendations to me from my staff 
were challenged. As to these matters (which are confidential 
administrative proceedings), mediation led to the voluntary dismissal 
of one by the complainant and is being pursued in the other two. I 
believe strongly in equal employment opportunity and in the rigorous 
enforcement of antidiscrimination laws, and note that no case resulted 
in any adverse finding.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much, we appreciate the fact 
that you truncated that statement. It will be printed in the 
record in full. In that, we're going to have a period of time 
for just questions. We're going to leave you all as a bank if 
that's agreeable. I want to ask you first, Mr. Biden, I'm sure 
you know that there's a relay of difference of opinion here, 
even on this Committee and throughout the Senate and the 
Congress with regard to the future of Amtrak. You will be a 
member of the reform board, which obviously carries the 
connotation that Congress and the Administration, and the 
American people believe there must be reform. Have you reviewed 
the history of Amtrak and are you prepared to take on the task 
of real reform?
    Mr. Biden. Yes, Mr. Chairman, I have reviewed much of the 
history of Amtrak and much of the current history and read both 
the GAO report and CRS report, Amtrak's budget for fiscal year 
06 and fiscal year 07 and also have been following the debate 
very closely. I agree with you and I think, would most 
everyone, that Amtrak is in need of reform. I think that it is 
also in need of leadership from a fully complimented board and 
if confirmed, the way that I see my role is basically to keep 
an open mind and try to seek common solutions that we can agree 
on between the Members of the Board, Congress, and the 
employees of Amtrak.
    The Chairman. Well, mention's already been made of the 
obvious fact that the alternative means of transportation are 
much more expensive already than the transportation on Amtrak. 
There has been a reluctance for the Amtrak Board to adjust the 
rate for fear that they might lose riders if the rates went too 
high. For one, I've lived in this area a very long time, I 
realize the rate necessity for Amtrak, but it does seem that 
the past management has been insensitive to the problem of a 
permanent plan for financing of Amtrak. So, I encourage you to 
look into that, and congratulate you for being willing to try. 
I've got to tell you, it's almost an impossible task the way I 
see it. So, thank you for being willing to try.
    Mr. Biden. Thank you very much.
    The Chairman. Ms. McLean, your background is one that's a 
little different, I think, in your statements you did mention 
the significant leaps in oil prices and I think we all are 
looking for intercity passenger concepts that will take the 
burden off of the roads, but also recognize that the increasing 
cost of those who must commute to work. Let me ask you what I 
asked Mr. Biden, have you looked at its history? Have you made 
a study of this problem and do you realize you're not really 
going on the Amtrak Board, you are going on the Amtrak Reform 
Board?
    Ms. McLean. Yes, sir, and I have looked, as Hunter was 
saying also, in the background of Amtrak. I've spent a few 
hours with Amtrak prior to this hearing and if I am to be 
confirmed, I look forward to spending many more hours with them 
understanding the business. I think there are some wonderful 
opportunities to make Amtrak a more efficient and effective 
intercity passenger rail service and I hope to have that 
opportunity to explore that in more depth.
    The Chairman. Well, I don't have any other questions, I 
just wish you luck. I really think what the problem is, is 
whether this new board is going to grasp the sense of reform 
and urgency behind it that I think that Congress and the 
Administration and even the people involved in using it realize 
that there must be some change and it's going to take some 
thinking out of the box about this system, I think, in order to 
make it work.
    Mr. Hill, I was born in Indiana, so I'm happy to see you 
here I really think that you have a most interesting area to be 
involved with. During your time when you were at the state 
agencies that I mentioned, what did you find was the most 
important factors that affect motor vehicle accidents and 
driver safety.
    Mr. Hill. Well, specifically in Indiana, I've found that 
the problem of getting driver behavior to change was 
significant. We just recently created, did a study on truck 
safety in our agency, it took 4 years to complete it, and the 
overwhelming results from that, Mr. Chairman, were that driver 
inattention, driver factors, driver interference in the 
passenger area are really contributing to crashes in our 
country and we also addressed, in the state of Indiana, not 
only the driver focus, but we made a conscious effort to have a 
presence of enforcement, so that violators knew there were 
consequences when they did not follow the law.
    So, a strong enforcement program coupled with a strong 
outreach program so that there's clear understanding of what is 
expected and then consequences if people don't follow it.
    The Chairman. One of the things that has been discussed in 
this Committee quite often now, is the problem of the increased 
amount of communications available to people who drive 
automobiles and how much, whether and how much those new 
systems are contributing to the loss of attention, that loss of 
dedication to really watching the automobile and its gauges. 
Did you go into that one there in Indiana?
    Mr. Hill. We did not have specific study, we relied a lot 
on the Federal Government to provide that research and I will 
tell you that in Federal Motor Carrier Safety, we are doing 
research in that area to look at guidance systems onboard 
tractor trailers that will allow us to keep the driver focused 
and give warning signs and signals to the driver when there's 
some deviation from the lane of travel and if confirmed, I will 
continue to work with this Committee on such issues and try to 
bring them forward for possible future legislation as needed.
    The Chairman. Well, we also have jurisdiction over 
communications, I think there ought to be some sort of way to 
really educate the public about how operating one of these 
devices, whether it's a cell phone, a Blackberry, even a cell 
phone that has a voice microphone embedded in the dashboard, 
all of those things, are really, I think contributing to the 
lack of attention to the increased problem and with the density 
of traffic now, it does seem to me, that if you're going down 
the street, almost everyone you look at has something in their 
hand besides putting them on the steering wheel, you know, and 
I think we really ought to get some concentration on that and I 
hope that you'll take a look at it.
    Mr. Rosenker, my state was selected because of our 
landscape for the next generation of safety and air traffic 
management safety programs that really determine the causes of 
accidents and I've had an accident, I was a survivor of a plane 
crash and I remember too well the report we got about that 
crash after I did come back to work and I remember particularly 
going out after the Alaska Airlines crash and meeting with your 
people, they were very good, very good. But, I wonder whether 
we pass on to the industry the real information that we learned 
about accidents of this type. Have you concentrated on that in 
terms of how do the findings that your board makes affect, what 
impact that they have on the industry that creates these 
machines and the people that regulate them?
    Mr. Rosenker. Senator, we work very closely with the 
industry and the regulator, the FAA. Matter of fact, a study 
which we did in your state in 1995 resulted in, what I think, a 
very effective program and that's the program of Capstone, 
which has been extremely helpful in the GA community. So, yes 
sir, we do believe there are technological answers and advances 
that can help and this Medallion program, although not 
technological, is also a very fine program as it relates to the 
commercial carriers.
    The Chairman. I was on one of the test flights for Capstone 
2 days before Christmas in 2001, I think, I know we're involved 
in those, but I think sometimes that, I'm talking about the 
basic, take the Alaska Airlines crash, I never really heard 
whether there was anything that went to the industry as a 
result of that crash and we all know what happened to it, it 
was upside down, it went into the ocean and the concept of that 
tail device, can you tell me, was that tail device ever 
modified?
    Mr. Rosenker. Sir, it was and that was a jack screw issue 
and lubrication and changes were made both in maintenance 
schedules and lubrication, that type of thing. So, we believe 
that that issue is well out there within the maintenance 
community and the operating community.
    The Chairman. If you're confirmed, do you have any new 
ideas, you know, management concepts you're going to take to 
the board?
    Mr. Rosenker. Sir, my objective is to basically move the 
back log and tighten up the schedule of reports and 
investigation analysis. We've taken too long in the past. GAO 
talked about that recently in our reauthorization, we agree 
with that. We're looking at technological advances which will 
help us along with management improvements which we believe 
will tighten up our ability to do an investigation, do the 
analysis, find the probable cause and make the recommendation 
to prevent that type of accident from happening again. We've 
made tremendous progress here in the last year, if you take a 
snapshot of where we were a year ago, our production, our 
report completion is up by 50 percent.
    The Chairman. That's good news. Mr. Steinberg, I'm sure you 
know that in my state 70 percent of the inner city 
transportation is by air. People in this Committee get tired of 
hearing that, but we have to have different systems for 
transportation of mail, different system for assuring that 
there be sufficient number of planes going to those remote 
villages every week and we have to have a different 
communication system and we depend heavily not only on the 
planes for personal travel, but they're absolutely necessary in 
the commercial world the cargo that goes into these small 
cities. Can you tell me, have you ever really compared the 
country to determine, in terms of air transportation, what the 
variance is on reliance on aviation for the various factors of 
aviation, passenger service, inner city service, and cargo 
delivery as well as mail delivery? Have you made any studies 
like that?
    Mr. Steinberg. Well, thank you Mr. Chairman, I can't 
personally say that I've done a statistical analysis, but it is 
obvious to me the critical role that aviation plays in your 
state. I think that they call Alaska the flyingest state in the 
union. One of the first things I did when I became Chief 
Counsel of the FAA was go to Alaska, so I could see first hand, 
just the role that aviation plays there and I think that a very 
high priority for me, if I should be confirmed for this 
position is to look at the issue of service to small 
communities and ensure that citizens in your state and 
elsewhere receive frequent safe affordable air transportation.
    The Chairman. Well, Ms. Blakey has really paid a lot of 
attention to Alaska and to some of the programs that Mr. 
Rosenker mentioned, Capstone and the Medallion program and the 
various programs we have put into effect, we've reduced traffic 
fatalities, now, by more than 50 percent because of these 
programs. But, I find additional objections here in the 
Congress the kind of funding that's necessary to continue those 
programs, we have a very small road system, we have one fifth 
the size of the United States and, as I've said, 70 percent of 
the travel between cities must be by air, there doesn't seem to 
be any willingness to equate the problem of, if the airplanes 
don't fly, you know what we're going to have to do, we're going 
to have to build roads and if we start building roads across 
our state, they're not going to be accusing us of taking too 
much money for bridges, they're going to understand how much 
money we need for roads. So, I think, what I'm saying to you, 
you've got an oversight responsibility now as Assistant 
Secretary and I hope that you'll work with NTSB and with FAA 
and make sure that there's an understanding of the need for 
these systems to continue. Support of these safety programs is 
vital, I think, and support of innovation, the innovation 
that's the GPS alone on a small airplane now can cut costs of 
flying in half because you don't have to go from point to 
point, you can go directly where you're going and know where 
you are all the time.
    So, I think we have to have a better way to introduce 
innovation into the smaller planes and I would hope that you 
would really understand you're office in the past has basically 
been associated with interstate transportation with the 
commercial airline coast to coast long haul carriers, what I'm 
saying is I hope you'll remember rural America when you're 
confirmed. Senator Lautenberg.
    Mr. Steinberg. Thank you.
    Senator Lautenberg. Thanks very much, Mr. Chairman, I think 
aviation to Alaska compares very much to rail for New Jersey. 
We probably have more flights per square acre, if one can 
measure that, than any state in the country. We have four 
significant airports starting with Newark, the biggest, 
Atlantic City International, Morristown Airport, and Teterboro 
Airport that are largely used for general aviation and 
industry. I'm very much concerned about Amtrak and I would say 
that the focus on reform that the Chairman raised here, may be 
interpreted differently by different folks.
    Reform suggests better--that things should be ``improved.'' 
But the question is--do we ``improve'' Amtrak by starving it to 
death of capital? That could be a final ``improvement'' that 
would result in the railroad not existing anymore. Hunter--I 
would call you Mr. Biden, but I'd be afraid your father would 
stand up--so I'm going to call you Hunter, and besides we've 
known each other such a long time--I'm pleased to see you here 
and with the understanding that you have so well, of what 
Amtrak means to states like Delaware and then we go on to New 
Jersey, Maryland, New York, Connecticut, Massachusetts, you 
name it, in the most densely populated area of the country.
    So, when I look at reform and I look at the 
``improvements'' that could be made, I see that we have yet to 
make the investment in Amtrak. Ms. McLean, I spoke to you about 
this the other day. Investments have not really been sufficient 
to get a first class railroad in our country, and we fail to do 
that at our peril. We witnessed this during 9/11, when aviation 
shut down. No one ever believed that would be possible, but it 
was that day and Amtrak was the only way to carry people from 
Washington. The train brought up several Congressmen and 
Senators from Washington to New York to see what had happened 
that tragic day when New Jersey lost some 700 people and New 
York almost 2,000. Other states also lost people. It was a 
change in America, one that we never dreamed would happen, but 
has left a nightmarish impact on us ever since then. And so, I 
question whether or not the Amtrak Reform Board is there to see 
that Amtrak ``improves'' its service to the country or whether 
or not it is there to further whittle away at Amtrak's ability 
to operate.
    Ms. McLean, we had a good discussion the other day, and I 
know that you understand a lot about transportation, but a 
funding level has been proposed for Amtrak which frankly would 
require shut down of the National Passenger Rail System. Now, 
from what you know about the company's finances, and I urge 
that you take a look at those, is a $900 million appropriation 
enough to maintain a safe, up-to-date, reliable, national rail 
system?
    Ms. McLean. I did take your advice yesterday, and looked a 
little bit more at the numbers. I'm not sure if the marks that 
the House provided last, I guess just a few days ago is the 
right number yet, it looks like the revenues are up this year 
for Amtrak above the projections and expenditures are actually 
a little bit below projections, which is good news.
    Senator Lautenberg. Does that mean the railroad is 
operating at a surplus?
    Ms. McLean. It's just, as far as I understood from the 
information that I looked at yesterday with FRA, is that the 
projections are more optimistic than anticipated for revenue.
    Senator Lautenberg. No, Ms. McLean, that doesn't mean that 
Amtrak would be operating with a surplus. You know we have 
capital expenses, we have debt service, we have operating 
expenses, all of those things, and so, whatever one we choke 
off, could again be the death knell for Amtrak. We know that 
there is an attitude, a preponderant attitude I'd say within 
the Administration, that Amtrak is not a necessary part of our 
transportation system. So once again, I hope that you had a 
chance, as I encouraged the other day, to look at the numbers 
and see what they represent. So can you give me a more direct 
answer, please?
    Ms. McLean. Well, let me say that I completely support a 
robust inner city passenger rail system for this country, it's 
absolutely necessary and I wouldn't have raised my hand to be 
considered for this position if I didn't feel that an inner 
city passenger rail system for this country is absolutely 
necessary. And as I said in my statement, with the changing 
dynamics in the transportation industry, if confirmed, I'm 
hoping to work with Amtrak to find a, perhaps, a more 
aggressive placement in our transportation network, so.
    Senator Lautenberg. Does that take money?
    Ms. McLean. Yes, it does, sir.
    Senator Lautenberg. Mr. Chairman, if Amtrak didn't operate, 
just in the corridor, the northeast corridor, we'd need more 
than 10,000 flights a year to substitute for the passenger 
trafficking that Amtrak presently covers and everyone knows 
that there's not a better expert in the Senate on aviation than 
Senator Stevens. I have a nexus in aviation personnel as well 
and we're going to be looking at the introduction of some 5,000 
very light jets in the next 10 years. The sky is infinite and 
as a consequence, we have to deal with it the best way we can, 
including a strong Amtrak.
    Turning to Mr. Steinberg, the FAA announced on Monday that 
it's going to unilaterally impose a new contract on some 15,000 
air traffic controllers. This contract covers a wide range of 
unresolved bargaining issues and in court you argued that the 
FAA could impose new conditions regarding pay and benefits, but 
not terms about working conditions. Sixty days has passed since 
Congress was notified about FAA's intent. Now was it your 
advice to FAA that Federal law allows FAA to impose this change 
in working conditions as well?
    Mr. Steinberg. Well, thank you Senator, and of course my 
role through this was to provide the administrator with my 
interpretation of the Federal Aviation Act, the provisions that 
you just mentioned as well as advice and counsel on how to 
proceed. Let me just say this, the statute that you're 
referring to was part of an effort that I'm sure you're aware 
of in 96 to provide personnel reform to the agency and we were 
directed to come up with a personnel management system which 
was broadly defined to include working conditions as well as 
pay and benefits. So in giving advice to the Administrator, I 
believe that it was consistent with the statute of that working 
conditions.
    Senator Lautenberg. So you think that the court gave you 
that latitude to make the decision that went beyond pay and 
benefits in its interpretation of laws going back to 1996, did 
you say? When it was intended to reform the entire personnel 
system?
    Mr. Steinberg. Yes.
    Senator Lautenberg. But, Mr. Steinberg, in all fairness, 
here, you are an attorney, a skilled attorney, but I don't 
think it reflects well upon you to make an argument in court--
the U.S. Court of Appeals--then turn around and advise the FAA 
to do just the opposite. It was an appeals court that decided 
this and they ruled in your favor after listening to your 
arguments. So if there's an interpretation that you think can 
go beyond the pay and benefits issue, then I think it 
constitutes an interpretation that's unnecessarily broad. Your 
action in this air traffic controller case created a lot of 
unnecessary work for the Congress. Just so we can plan ahead, 
are there any other laws that you anticipate re-interpreting if 
you're confirmed for this position?
    Mr. Steinberg. Well, Senator, again, in looking at the 
Federal Aviation Act, I attempted to do what I thought was 
right. The statute, as you may be aware, contained a provision 
that said that we couldn't bargain over wages and benefits 
except by using the impasse mechanism. That impasse mechanism 
referred to the personnel management system, so I did think it 
was a reasonable position that working conditions were part of 
the mix.
    My role as Assistant Secretary will not be to interpret the 
law, but to advise the Secretary on the important aviation 
policy issues that we face. The air traffic control issue was a 
tough issue, and I respect the arguments that were made on both 
sides and I look forward to, as the difficult aviation issues 
come forward, to working with the Committee to find the right 
solutions.
    Senator Lautenberg. But you didn't accept the plain 
language of the law requiring submission to include the union's 
objections and reasons for the objections. Did the union 
provide the objections, or were these more or less your 
interpretations?
    Mr. Steinberg. Senator, when we transmitted our proposal to 
the Congress, we did include both sides of proposals. I recall 
that immediately thereafter, the union also made a number of 
filings. I believe we complied with the statute and I certainly 
believe that the Congress, provided with the information that 
you needed to make a determination about whether to initiate.
    Senator Lautenberg. I like your commitment that you review 
this situation with us directly if confirmed, I'd appreciate 
that.
    Mr. Steinberg. I'd be happy to.
    Senator Lautenberg. OK, Mr. Hill, Secretary Mineta said 
that he'd be amenable to the increased use of triple trailer 
trucks. Now, that's something that's of grave concern to me 
because of the known safety risks with these trucks. Have you 
ever been on the highway turnpike in New Jersey or related 
roads in New Jersey?
    Mr. Hill. Yes, sir, Senator Lautenberg, I have been.
    Senator Lautenberg. I don't know whether you'd like to have 
your family riding in front of, along side of, or behind one of 
those triple trailer trucks on our roads, but I would say this, 
I've fought very hard to limit triple-truck use to 16 states, 
where it now is possible, there are all kinds of films and 
evidence that suggest that triple-trailer trucks present a 
heightened safety risk and can cause significant damage on 
roads not specifically prepared to handle them. Would you 
oppose the re-introduction of these vehicles to our highways?
    Mr. Hill. Thank you, Senator Lautenberg for that question. 
The size and weight issue, as you know back in the language 
from 1991 as you indicated, they dealt with this and the freeze 
was placed on at that time during that re-authorization period. 
In the next re-authorization period that we're currently in, it 
has continued that we have not expanded that freeze, 
delineation. At this time, there is not statutory for me to 
proceed on that, Federal highway administration deals with size 
weight in our department, we will commit to you, if confirmed, 
that we'll work closely with this Committee and the Federal 
Highway Administration to study the issues?
    Senator Lautenberg. Do you oppose the expanded use of 
triple trucks, to limit them to where they are now?
    Mr. Hill. Well, Mr. Chairman, I'd be glad to----
    Senator Lautenberg. I'm not Chairman yet, but I'm going to 
be soon.
    Mr. Hill. Sorry, Senator Lautenberg, thank you, I didn't 
mean to demote you. Senator Lautenberg, I would, we would have 
to confer with you and the Committee on this issue and we'll be 
committed to do that.
    Senator Lautenberg. You're right about that. OK, thank you, 
and last, Mr. Chairman, I want to ask one more question of Mr. 
Hill. You were Chief Safety Officer for the FMCSA--these 
acronyms get worse all the time. You had a direct role in 
developing the hours of service regulations that were 
overturned by the United States Court of Appeals in 2004. Even 
though the court required the FMC to re-examine and overhaul 
the regulation, I'm concerned that the rule that was adopted in 
2005 was almost functionally identical as the original rule and 
jeopardized the safety of truck drivers and all motorists on 
the highways. Did you have a role in developing these hours of 
service regulations for FMC?
    Mr. Hill. Senator Lautenberg, I was involved in the review 
of that rule. The court specifically directed our agency to 
look in the consideration of the hours of service rule about 
driver health. It said that we did not properly consider it, we 
considered considerable research, reviewed the latest science 
involving sleep, respiratory sleep and we couldn't, I can say 
to you that we have the latest information in the rule that the 
court wanted us to address. Now, there were other issues the 
court brought up in terms of DITDA, and one of those, for 
example was EOBR's and we are presently working on EOBR's and 
will be publishing a rule later this year, notice of proposed 
rulemaking on that issue and we're working very closely to make 
sure that we address the concerns of the court and fatigue on 
highways.
    Senator Lautenberg. Yes, we've had some terrible, terrible 
truck accidents as a result of sleepy drivers and I was 
thinking, Mr. Chairman, that they have a deadman's throttle in 
trains, but at least you know if the train continues, that it's 
going to be exactly where it's supposed to be. So we couldn't 
have something like that in a cab of a truck. But you raise an 
interesting question. Can we somehow or other, get some 
instrumentation in the cab that would alert the driver or alert 
some recipient of the fact that this driver is beyond being 
able to function properly?
    I said that this would be the last question, but I meant 
that it was next to the last, Mr. Chairman. This one is now the 
last. We're good friends. You're looking at two seasoned 
veterans. Were you in Vietnam like I was or was it an earlier 
war? I was in Europe during the same war, so we're novelties 
around here now. I hope we continue to enjoy our shared 
distinctions.
    I'm concerned that under this Administration, the agency 
FMC has not been effective enough when it comes to improving 
truck safety and if confirmed, what steps might you take to 
reduce the over 5,000 large truck-related deaths each year?
    Mr. Hill. Thank you Senator, I share your concern with 
that. I know you've been a champion of traffic safety, I know 
when I was with the state police, we welcomed the .08 rule that 
you helped get through and we've benefited from a lot of the 
safety initiatives that this Committee and Congress has passed. 
I want to just commit to you three things. I'm committed to the 
whole concept of safety, I've dedicated my whole life to public 
safety, traffic safety, that's the one thing I have done in my 
adult life and I will continue to do that.
    Second, I want to provide strong leadership for the Agency, 
I believe we need to deal with regulatory development, I think 
we need to get the rules out that you folks have asked us to do 
in this Committee and the Congress and we're working diligently 
to get that back log erased. Second I want to make sure that 
our relationship with the states continues to work well. They 
do a lot of the enforcement out there. They enforce with the 
grants that our committees, your Committee provides and so it's 
important that if we're going to make safety gains that those 
people really are in sync with us and that we have a good 
working relationship.
    And then last, I will hold our executives accountable for 
results, not just talking about processes, but we will look to 
results and I'm committed to that and will work with this 
Committee and Congress if you choose to confirm me.
    Senator Lautenberg. Thank you very much, Senator.
    Mr. Hill. Thank you Senator, I appreciate that.
    The Chairman. We have two mark-ups for this Committee 
scheduled in June, one June 20, we'll basically be concerned 
with telecommunications or communications. June 27 we'll also 
have a mark-up. We'll do our best to get these nominations 
before the scheduled mark-ups and I personally want to thank 
you all. You're in the level of government that affects 
millions of Americans daily and we congratulate you for being 
willing to take on these tasks and wish you very well in your 
endeavors. So, we'll do our best to see that these nominations 
are reported to the floor as soon as possible.
    Thank you, and I thank the families. I'm sorry for the 
delay caused by the floor schedule. I know you've been here for 
a long time and your children have been very patient. Thank you 
very much.
    Senator Lautenberg. Thank you, Mr. Chairman.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]


                            A P P E N D I X

  Prepared Statement of Hon. George Allen, U.S. Senator from Virginia

    Mr. Chairman, fellow members of the Committee, I am pleased to once 
again introduce a fellow Virginian--Mark Rosenker--who comes before us 
as President's nominee to be Chairman of the National Transportation 
Safety Board (NTSB).
    Mark has served ably as Vice Chairman and, since March 2005, as 
Acting Chairman of the NTSB. During this very busy and in some ways 
stressful period for the Safety Board, his steady hand and strong 
leadership ensured that the NTSB continued to fulfill its mandate, 
doing the work that is so important to the safety of all our 
constituents.
    Before talking more about Mark, I'd like to welcome his wife, 
Heather, who is with us today, and also Mark's colleagues and friends 
who have come to show their support for him as well.
    Mark brings an extensive background of management and advocacy 
experience, both civilian and military, to his work at the Safety 
Board.
    His record includes more than 37 years of active and reserve duty 
in the Air Force, where Mark has risen to the rank of Major General. 
His decorations include the Distinguished Service Medal, Legion of 
Merit and two Meritorious Service Medals.
    Mark also served as Director of the White House Military Office, 
with the rank of Deputy Assistant to the President. In this senior 
staff position, Mark was the principal advisor for all military support 
to the White House, including managing DOD assets such as Air Force 
One, Marine One, and the White House transportation system.
    After serving nearly 2 years at the White House, Mark was nominated 
by the President to be a Member of the NTSB.
    During his time at the Safety Board, Mark has been a strong and 
outspoken advocate for transportation safety. He is dedicated to the 
Safety Board's mission of objective, independent accident 
investigations and making sure we learn the hard lessons of 
transportation tragedies. He also never misses an opportunity to push 
for measures for preventing accidents, rather than just mitigating the 
results.
    Mark has strong ties to this region. A Virginian now, he spent a 
good deal of his youth in Maryland, and is a graduate of the University 
of Maryland.
    Clearly Mark has demonstrated that he is capable and enthusiastic 
about the Board and its mission. I urge my colleagues to swiftly 
support his confirmation.
                                 ______
                                 
   Prepared Statement of Richard G. Lugar, U.S. Senator from Indiana

    I am pleased to have an opportunity to introduce Mr. John H. Hill 
to the Members of the Senate Committee on Commerce, Science and 
Transportation.
    After graduating from Taylor University with a Bachelor's degree in 
1973, John began a long and distinguished career with the Indiana State 
Police. John rose to the rank of Major and served as the Commercial 
Vehicle Enforcement Division Commander and also led the Field 
Enforcement and Logistics Divisions within the Indiana State Police. 
During his tenure with the Indiana State Police, John served on several 
national committees concerning transportation-related matters, 
including the Commercial Vehicle Information Systems Committee.
    In June of 2003, John was selected to be the Chief Safety Officer 
and Assistant Administrator of the Federal Motor Carrier Safety 
Administration (FMCSA). He also served on the American Association of 
Motor Vehicle Administrators Task Force for Identification Security. 
John is currently serving as the Acting Deputy Administrator of the 
Federal Motor Carrier Safety Administration (FMCSA).
    John's unique background blends experiences from the fields of law 
enforcement and transportation oversight He has used his talents and 
intellect to bring people together in an effort to balance motor 
carrier safety with industry efficiency. John is committed to work 
toward the FMCSA mission to reduce crashes, injuries, and fatalities 
involving large trucks and buses.
    John resides in Greenwood, Indiana, and shares this honor with his 
wife, Pepper and his son, Mica and daughter-in-law, Andrea, as well his 
son, Nathan and daughter-in-law, Jennifer.
    Mr. Chairman, I thank you for this opportunity to introduce John H. 
Hill to the Committee on Commerce, Science, and Transportation.

    I am also pleased to have an opportunity to introduce Donna McLean 
to the Members of the Senate Committee on Commerce, Science and 
Transportation.
    Donna has many years of experience in the Federal Government 
specifically working on transportation policy. After receiving her 
Bachelor's and Master's degrees from Indiana University's School of 
Public and Environmental Affairs, Donna joined the U.S. Department of 
Transportation as a Program Analyst. Donna built on her background in 
transportation to become a budget examiner on transportation issues at 
the Office of Management and Budget. From 1993-1999, Donna served as a 
staffer on the House Committee on Transportation and Infrastructure. In 
2001, Donna was nominated to serve as the Assistant Secretary for 
Budget and Programs and Chief Financial Officer for the U.S. Department 
of Transportation.
    In 2004, Donna began serving as the Program Manager and Adjunct 
Lecturer for Indiana University's School of Public and Environmental 
Affairs' Washington Leadership Program. Donna has served as a teacher 
and mentor for several students who have interned in my personal office 
and on the Senate Foreign Relations Committee.
    Donna is joined today by her husband, Marcus Peacock, and their 
daughters, Mey and Iona. In addition, her sister, Robin Miles-McLean 
and niece, Haley Miles McLean, have traveled to be with Donna for this 
nomination hearing.
    Mr. Chairman, I thank you for this opportunity to introduce Donna 
McLean to the Committee on Commerce, Science, and Transportation.
                                 ______
                                 
Prepared Statement of Robert A. Scardelletti, International President, 
           Transportation Communications International Union

    Chairman Stevens, Ranking Member Inouye and members of the 
Committee. It is my pleasure to present the following views and 
observations relative to Amtrak Reform Board members and ask that my 
statement be submitted for the record.
    I would like to thank you for the opportunity to submit for the 
record some facts concerning Amtrak Reform Board members and point out 
the failure in their fiduciary responsibility to oversee the National 
Railroad Passenger Corporation, better known as Amtrak, as the 
Committee considers approval for nominees to the Amtrak Board.
    My name is Robert A. Scardelletti. I am the International President 
of the Transportation Communications International Union, AFL-CIO. TCU 
recently merged with the International Association of Machinist and 
Aerospace Workers. We represent approximately 8,500 employees working 
for Amtrak. Our members work as clerical and reservation employees, On 
Board Service employees, Carmen, and Supervisors. In view of this we 
have a very great interest in those individuals who are nominated to 
serve on the Amtrak Reform Board.
    As the Senate Committee on Commerce, Science and Transportation 
considers the nominations of Mr. R. Hunter Biden and Ms. Donna R. 
McLean to be members of the Amtrak Reform Board, the Transportation 
Communications International Union asks that the Members of the 
Committee consider the following points.
    For the past several years the members of the Amtrak Reform Board 
have not acted in the best interests of Amtrak. A standard for any 
member of a corporate board is that the person act in the best 
interests of the corporation. Members of the Amtrak Reform Board should 
be no different.
    The current members of the Amtrak Reform Board have consistently 
put forth proposals and instituted actions that would cause Amtrak harm 
and/or to be forced to declare bankruptcy. They have attempted to 
undermine the advantage that Amtrak enjoys in providing passenger 
service in the United States. They have supported the sale of Amtrak 
infrastructure, in whole or in part, to outsiders with no experience in 
operating passenger service. They have undermined the employees of 
Amtrak, thereby making it almost impossible for those employees to 
perform their jobs in the manner that would bring goodwill to Amtrak.
    It is clear that the current members of the Amtrak Reform Board are 
not acting as fiduciaries of Amtrak, but as agents of the 
Administration whose goal it has been to dismantle Amtrak and 
discontinue Amtrak service in whole or in part.
    While it is a good thing that the Amtrak Reform Board will have two 
new and additional members, this Committee should determine what, if 
any, agenda either or both of these individuals would bring to the 
Board. Also, it should be determined what position the nominees have 
concerning maintaining Amtrak as a national passenger service and a 
vital part of the transportation system of our country.
    To assist the Members of the Committee to understand problems that 
have been caused by current members of the Amtrak Reform Board attached 
is a copy of a letter that I sent to Mr. David Laney, Chairman. Mr. 
Laney has not responded to this letter.
    In considering future nominees for positions on the Amtrak Reform 
Board, the Committee should demand no less than the following:

        Nominees should have minimum qualifications that includes 
        familiarity with the rail industry, the issues facing Amtrak 
        and a commitment to a national passenger rail system;

        Nominees should not be appointed until after consultation with 
        the appropriate Senate and House bipartisan leadership;

        Nominees with any possible conflict of interests, including 
        stakes in other rail carriers or competitors of Amtrak, should 
        be excluded; and

        Nominees should be committed to recognizing the historic 
        positive contributions of Amtrak's workforce, and to working 
        cooperatively with Amtrak unions to seek solutions that are in 
        the mutual interest of the company and its employees, rather 
        than perpetuating the adversarial, anti-employee policies of 
        the current Board (such as refusing to settle contracts dating 
        back to 2000, worsening working conditions, contracting out, 
        and trying to eliminate railroad retirement, FELA, and other 
        statutory rights of Amtrak workers.)

    The Transportation Communications International Union appreciates 
the Committee's consideration of the issues raised herein and in the 
attached letter.
                                 ______
                                 
                               Attachment

          Transportation Communications International Union
                                        Rockville, MD, May 19, 2006
Mr. David Laney,
Chairman,
AMTRAK Board of Directors,
National Railroad Passenger Corporation,
Washington, DC.

Dear Mr. Laney:

    It has come to my attention that Amtrak has engaged the services of 
McIntosh & Associates to study the operation of the Reservation Sales 
Offices and to report on how work currently performed by TCU-
represented reservation, agents might be contracted out.
    The reservation agents whose jobs you are targeting for elimination 
are among the most professional and productive workers that one could 
find anywhere, and the calls which they handle generate millions in 
revenue for Amtrak. Yet, I am not at all surprised to learn that you 
have drawn targets on their backs. It has become increasingly clear to 
me that the Amtrak Board of Directors and senior managers are enamored 
with the idea of destroying as many unionized jobs as you possibly can.
    Amtrak's Strategic Reform Initiatives report released last year, 
and the more recent Fiscal Year 2007 Grant and Legislative Request, 
represent a virtual declaration of war on the pensions, wages and job 
security of Amtrak's unionized workers.
    You have asked Congress to take new employees out of the railroad 
retirement system that is healthy and well-funded. You also propose 
that Congress amend other laws so as to ensure that private firms have 
access to tracks and are able to bid against Amtrak to operate 
intercity trains. You even call for Amtrak to turn over its equipment 
to competing, successful bidders. In doing so, you are clearly not 
acting as directors and managers of Amtrak but as partisan 
proselytizers of an ideology of privatization favored by the Bush 
Administration. You intend to advance that ideology at the expense of 
Amtrak's workers.
    In a similar vein, you have asked Congress to amend the Railway 
Labor Act to allow labor contracts to expire so that Amtrak could 
impose work rule changes or wage cuts on employees without regard to 
the collective bargaining process. You claim that this radical 
departure from long-standing labor law would ensure an equitable 
framework for labor relations among Amtrak and its competitors. That 
rationale is absurd and disingenuous. Airlines, commuter rail and 
freight rail are governed by the very same rules from which you desire 
exemption.
    The truth is that you cannot abide balanced collective bargaining. 
You seek a new legislated advantage over your employees and their 
unions while you continue to refuse to engage in fair bargaining. It is 
outrageous that most Amtrak workers, including TCU-represented Carmen 
and Supervisors, have gone 6 years without a general wage increase. 
Thousands of unionized jobs were eliminated during that same period, 
and the remaining employees have been required to do more work with 
less help. I am certain that Amtrak's hard-working front line employees 
will find it totally reprehensible, as I did, to learn that Amtrak 
executives were paid hundreds of thousands of dollars in bonuses at the 
very same time that the company forced unionized employees to sacrifice 
so much. I am also certain that they feel, as I do, that you have 
absolutely no regard for Amtrak employees or their families.
    It has always been difficult to negotiate wage agreements with 
Amtrak due to its inadequate and unstable Federal funding. However, 
funding levels are no longer the most significant obstacle to fair 
wages, secure pensions and decent working conditions for Amtrak 
employees. The biggest obstacles today are the Amtrak Board of 
Directors and its senior managers.
    Your attacks on employees have not stopped with proposed 
legislative changes or intransigence at the bargaining table. You have 
used all sorts of arguments and distortions to lay blame on Amtrak 
employees, while trying to provide cover for the Bush Administration's 
utter hostility toward federally-funded rail passenger service. The 
Amtrak testimonies to Congress last Fall that compared On-Board Service 
workers to fast-food restaurant employees was one of the most pathetic 
hatchet jobs I have ever seen. Amtrak management and the Amtrak 
Inspector General refused to tell the truth about On-Board workers' 
long hours, extremely difficult working conditions, lack of daily or 
weekly overtime pay, and their mandatory training in emergency 
evacuation, security and passenger safety matters. Through distortions 
and half-truths, Amtrak sought to blame the wages of On-Board workers 
for Amtrak's food service deficit and to pave the way for contracting 
out that service.
    More recently, you have created new management positions to perform 
work that TCU ARASA Supervisors used to perform even though Amtrak had 
previously promised that would never happen. These new management jobs 
are costing Amtrak more than the TCU-represented Supervisor positions 
which had been eliminated. You are scuttling hundreds of On-Board 
Service positions while downgrading food service on the trains. You and 
Acting President David Hughes have announced your desires to contract 
out mechanical, car cleaning, ticket office, and other work; and now, 
management has taken a step to try to replace reservation sales agents.
    I do not believe for 1 second that you are acting in the interests 
of Amtrak's customers or that you are advancing Amtrak's historic 
mission to provide the best possible intercity rail passenger service 
for America. You and other Board members were appointed by President 
Bush who has repeatedly tried to kill Amtrak and who proposed zero 
funding for Fiscal Year 2006 so as to accomplish exactly that. When 
Amtrak's former CEO spoke out last year against the Board's attempts to 
lay the ground work for dismantling Amtrak, you fired him. The current 
Members of the Board have been acting more like Amtrak gravediggers 
than as directors of Amtrak or guardians of America's rail passenger 
service.
    TCU represents more than 8,500 employees at Amtrak who perform work 
as Carmen, Clerical and Station workers, Reservation Agents, 
Supervisors and On-Board Service workers. Most of our members are 
protected against the contracting out of their jobs, and it would be a 
grave mistake for Amtrak to breach those protections. If you and the 
other Members of the Board and top managers truly wanted Amtrak to 
succeed, you would be rewarding employees for the service they have 
provided to Amtrak passengers under incredibly difficult and often 
demoralizing conditions. Our members have made countless sacrifices to 
keep Amtrak going in the face of severe budget restrictions, threatened 
bankruptcy and the dismantling of the national system, all the while 
earning less than their counterparts who work for commuter rail service 
agencies and freight railroads. Our members have routinely helped to 
mobilize voters to ask Congress to appropriate the moneys needed to 
maintain or increase Amtrak service. And TCU itself has expended 
considerable resources to press Congress to provide Amtrak with 
sufficient funding for operations and long term capital investment.
    TCU members have been working on board, repairing cars, selling 
tickets, hoisting baggage, directing trains, supervising road gangs and 
more, long before you or the other Board Members were appointed to 
carry out the White House agenda. TCU will do everything in its power 
to ensure that our members continue to do that work long into the 
future.
        Very truly yours,
                                    Robert A. Scardelletti,
                                           International President.

        cc: Norman Mineta, Board Member; Floyd Hall, Board Member; 
        Enrique Sosa, Board Member; David Hughes, Acting President; TCU 
        representatives at Amtrak.
                                 ______
                                 
         Prepared Statement of Hans Ephraimson-Abt, Spokesman, 
                    Air Crash Victims Families Group

    We welcome the appointment of Andrew B. Steinberg as Assistant 
Secretary of Transportation for Aviation and International Affairs and 
hope that the Senate Committee on Commerce, Science and Transportation 
proceeds to recommend to the full Senate to give its advice and consent 
as early as possible. The absence of a Permanent Assistance Secretary 
with only an acting office holder in place--however qualified he might 
be--has slowed down--or even detracted the resolution of some of the 
important decisions both in the domestic and in the international 
arena.
    By education and career background, we hope soon to be, Assistant 
Secretary Steinberg brings experience and knowledge from his time as 
General Counsel at the Federal Aviation Agency. The combination of DOT 
Secretary Jeffrey N. Shane, FAA Administrator Marion Blakey, NTSB 
Chairman Mark Rosenker and Andrew Steinberg as DOT Assistant Secretary 
for Aviation and International Affairs would make a strong team--
already used to work together.
    The nominee's relations and experiences both in his career and in 
his family relate apparently to the airlines, the manufacturers and to 
the Internet related modernized tourist industries. This gave the 
nominee the opportunity and exposure to work for and with very pro 
active personalities in the civil aviation field like at American 
Airlines: Bob Crandell and Anne McNamara as well as Jeffrey Katz--who 
became later the CEO of Swissair--at the times of the Swissair 111 
tragedy.
    In his new position the nominee will be faced to consider also the 
needs of the general public both in the domestic and in the 
international arena--hopefully pro actively and by harmonization among 
the interests of all the stake holders.
    As a consequence of a series of major domestic and international 
aviation tragedies that occurred between 1983 and 1996, with the 
encouragement of DOT Secretaries Samuel Skinner, Federico Pena and 
Rodney E. Slate as well as then Assistant Secretary Jeffrey Shane and 
the former Deputy Assistant Secretary Patrick Murphy--an informal 
coalition of the stakeholders with the Public's participation made it 
possible to develop, negotiate, conclude, ratify and implement together 
important rules and treaties such as the ``Montreal Convention'' of 
1999 replacing the antiquated ``Warsaw Convention'' of 1929, the 
modernization of the 1920 ``Death On The High Seas Act in 2000, the 
1996/1997 ``Aviation Disaster Family Assistant Act'' and the ``Foreign 
Carrier Family Support Act of 1997''--both of which would have never 
been passed without the active support of Committee Chairman Ted 
Stevens and co-Chairman Daniel Inouye--the ICAO ``Guidance on 
Assistance to Aircraft Accident Victims and their Families'' of 2001--
and many other initiatives, last but not least the resolution of the 
aftermath of September 11, 2001.
    Regretfully, lately this very useful and productive inter 
relationship among the stakeholders themselves and the Government has 
considerably weakened, as is evidenced by the recent decision of the 
Department of Transportation allowing the air carriers their requested 
very limited implementation of the 1999 Montreal Convention, with only 
selective international harmonization--at the same time essentially 
ignoring the very valid public's comments and input. The nominee may 
find it useful to address early on the benefits which come from 
cooperative participation of all stakeholders and increased 
harmonization in the international field.
    Although Michael Jennison a senior legal Counselor of the Federal 
Aviation Administration is the Rapporteur of a Special Group at the 
International Civil Aviation Organization (ICAO) to modernize the 
Treaty of Rome (Damages caused by foreign aircraft on the ground) the 
United States has so far not officially participated in this very 
important initiative, which causes some concern in the international 
community.
    The full implementation by DOT of the 1999 ``Montreal Convention'' 
should also be high on Secretary Steinberg's agenda, as well as the 
modernized rules and regulations of ETOPS (Extended Transocean and 
Transpolar flights) which are urgently needed in view of the impending 
introduction of longer range as well as larger planes with increased 
passenger capacity.
    In the person of Andrew B. Steinberg who is also very well 
respected in the international community, the Department of 
Transportation would be enriched by a knowledgeable person, moving over 
from his position as the Chief Counsel for the Federal Aviation 
Administration.

    The National Transportation Safety Board (NTSB) is one of the least 
heralded, yet an eminently important and cost effective, independent 
agency respected internationally, responsible to Congress.
    To function properly it needs a permanent leadership.
    Mark Rosenker has been a most effective Vice Chairman and Acting 
Chairman for the last 3 years. Under rather difficult circumstances he 
has been and is a most able administrator.
    For some time now the NTSB has gone through the process of a 
complete turnover of its leadership. It about time that it has a again 
a permanent Chairman.
    We not only supported the confirmation of Mark Rosenker as Chairman 
of the NTSB--but respectfully encourage the Committee on Commerce, 
Science and Transportation to vote early on the nomination, so that the 
full Senate is able to give his appointment its prompt Advice and 
Consent.
    In the last years we have been most fortunate that no major 
domestic Civil aviation accident has occurred. Yet almost daily the 
NTSB is faced with Aviation and surface incidents, not only in the 
United States. Because American aircraft are used worldwide the NTSB is 
also involved in its accident investigations either as observer, or as 
advisor, or as investigator by invitation.
    This year is the tenth anniversary when your Committee approved the 
``Aviation Disaster Family Assistance Act of 1996,'' and one year later 
the ``Foreign Carrier Family Support Act of 1997.'' Your Chairman 
Senator Ted Stevens before whom we were privileged to testify at that 
time and your Co-Chairman, Senator Daniel Inoue were much appreciated 
supporters of the legislation.
    Since then the NTSB has also become a much respected post incident 
coordinator for crisis management and family care.
    Based on the NTSB families affairs program, the International Civil 
Aviation Agency (ICAO) approved Circular 285 the ``Guidance On 
Assistance to Aircraft Accident Victims and Their Families'' in 2001. 
This initiative was introduced at a plenary ICAO meeting in Chicago, in 
1998 by then NTSB Chairman James E. Hall.
    In addition the NTSB has established a teaching academy which in 
the short time of its existence has established already a global 
reputation for effectiveness and excellence, despite its limited means.
    No agency of the quality and dedication of the NTSB can operate 
effectively without adequate staffing and financing. As Hurricane 
Katrina has taught us, we all have to be prepared in advance for those 
calamities to happen. We therefore suggest that the Senate does not 
only confirm speedily Mark Rosenker as Chairman of the NTSB, but also 
provide him with the means to properly staff, finance the operations of 
the NTSB and complete the nomination process for the other two openings 
of the Board, as fast as possible.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Donna R. McLean

    Question 1. Ms. McLean, you come highly recommended based on your 
past experiences. You have an opportunity to step in, be creative, and 
really help our Nation's passenger rail system. You know this is not an 
easy job and are well prepared to face the challenges ahead. How you 
will approach the problems facing Amtrak, from the lack of funding to 
the need to make major investments and reduce costs?
    Answer. If confirmed, I would see my role as an Amtrak Board member 
to cover both short term and long term issues. In the short term, I 
would be interested in exploring with the Amtrak professional staff 
certain changes that could both increase revenue and reduce costs. 
These short term actions would not alter rail service. These short term 
actions would simply be an attempt to improve business operations; 
better understand the Federal funding process; and incorporate 
technology improvements in Amtrak's service. For instance, if 
confirmed, I would examine with Amtrak's professional staff why Amtrak 
tickets can only be purchased on Amtrak's website and not any other 
transportation travel Internet site. I find it interesting that 
Travelocity offers Canadian and European train tickets and not Amtrak 
tickets.
    The other role of the Board is to look at the long term needs of 
Amtrak. Unfortunately, financial decisions made by Amtrak years ago 
have resulted in the company having very few assets. In addition, 
Amtrak is approximately $3 billion in debt. It is my understanding that 
Amtrak is currently looking at its capital needs, including a 
comprehensive look at its needed investments. If confirmed, I look 
forward to seeing that report to better understand the long term needs 
of Amtrak, its current debt, and helping to map out a better future for 
our country's intercity passenger rail system.

    Question 2. This Committee has worked hard on a reauthorization 
plan for Amtrak, favorably reporting S. 1516, sponsored by Senators 
Lott and Lautenberg, Stevens, Hutchison and myself last year. Are you 
familiar with this proposal and do you have comments regarding it?
    Answer. Yes. I have read the bill and am interested in several 
sections of the bill. Specifically, if I am to be confirmed, I would 
like to explore the requirements for a new financial and cost 
accounting system; calls for improved metrics; and exploring the 
restructuring of Amtrak's current debt. While the bill is still under 
debate, there are several interesting ideas that Amtrak could begin to 
explore right away.

    Question 3. What do you believe the Federal Government's role 
should be in the financing of Amtrak's capital and operating needs? 
What role should the states and the private sector have?
    Answer. The Federal Government has been supporting Amtrak since its 
establishment. Several times there have been attempts to make Amtrak 
``self sufficient.'' Unfortunately, those efforts have failed. However, 
I think that there are several ways that Amtrak could improve its 
business--specific actions were included in your Committee's bill, S. 
1516. I believe the Board's role is to make sure that Amtrak is taking 
advantage of every efficiency gain possible, while maintaining service 
to its clients. If confirmed, I would work with Amtrak to explore those 
efficiency options. If those efficiency options meant that a smaller 
government grant could be provided, then I would believe the Board was 
doing its job.
    I believe that states are supportive of intercity passenger rail 
systems and should maintain their support, as they do with all modes of 
transportation. A healthy intercity passenger rail service is important 
to many states and their support is necessary to sustain a robust 
system in the long term. In regards to your question on the role of the 
private sector, believe that this relationship has not been fully 
explored for intercity passenger rail. Creative arrangements between 
the commercial sector, the public sector, and Amtrak should be 
considered, as they have been in many other transportation modes.

    Question 4. Do you support Amtrak's operation of a comprehensive 
national system or do you believe Amtrak should focus on developing 
short distance corridors that connect city pairs in densely populated 
regions? Or should Amtrak continue to develop both?
    Answer. I believe that this country should have a robust intercity 
passenger rail system. Most other transportation modes operate 
successfully, in part, because they are based on a national feeder 
system. Certainly the aviation system and the highway system are based 
on feeder structures. One area where we could improve our Nation's 
transportation system is to better incorporate our different 
transportation modes as we examine potential feeder systems. If 
confirmed, I look forward to working with Amtrak on their national 
system and improving service for their customers.

    Question 5. One of the immediate issues facing Amtrak is 
appropriations for the coming year. Amtrak requested approximately $1.6 
billion in capital and operating funds for Fiscal Year (FY) 2007. The 
Administration requested only $900 million, which former Amtrak 
President David Gunn consistently stated was a shutdown number when the 
Administration proposed such funding levels in previous years. If 
history is a guide, Amtrak will probably not get the $1.6 billion it 
says it needs. As an Amtrak Board member, where will you recommend 
Amtrak should focus its limited funds next year?
    Answer. Unfortunately, Amtrak's professional staff is accustomed to 
beginning its Fiscal Year with limited resources. If confirmed, I would 
first discuss the proposed options with the professional staff. I would 
also explore taking advantage of some short-term efficiency 
improvements, as I have already discussed and which appear in your 
Committee's bill (S. 1516). I would also make sure that the 
infrastructure study Amtrak is currently undertaking is completed so 
that the information can be used to better understand the needs for 
Fiscal Year 2008.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              John H. Hill

    Question 1. Mr. Hill, highway safety is a top priority for all of 
us. Although in 1999 the Department set a goal of reducing truck 
fatalities by 50 percent by 2008, it does not appear likely that this 
goal will be achieved under present condition. Truck fatalities 
increased from 5,190 in 2004 to 5,226 in 2005. Please give us your 
blueprint for attacking this problem, including the first actions you 
would take as Administrator to reduce motor carrier crash deaths and 
injuries. What can the Congress do to make the most immediate 
improvements in truck safety?
    Answer. As I mentioned at my confirmation hearing, my extended 
background in law enforcement has shown me that highway safety is built 
on good rules coupled with strong enforcement. My first actions as 
Administrator, if confirmed, would be to make sure that the Federal 
Motor Carrier Safety Administration (FMCSA) relied on data-driven 
regulations to guide our work. For example, the recently released Large 
Truck Crash Causation Study points out the critical role of the driver 
in crashes. I will ensure that FMCSA applies this important data to 
take effective and near-term actions on important initiatives focused 
on drivers. This means implementing the important new provisions of 
SAFETEA-LU with respect to the medical status of drivers: moving ahead 
with our rulemaking on diabetes, creating the National Registry of 
Medical Examiners, and supporting the work of our newly established 
Medical Review Board in updating all of our physical qualification 
standards for commercial drivers. FMCSA will complete ongoing work 
affecting drivers directly, such as our rulemaking on merging medical 
information with commercial driver's license files and regulations 
concerning electronic on-board recorders (EOBRs).
    With respect to enforcement, FMCSA's Comprehensive Safety Analysis 
(CSA) 2010 project will re-engineer how we interact with drivers and 
carriers to ensure that FMCSA can target more of its regulated 
community to promote compliance. In addition, more effective oversight 
of our New Entrant program will ensure that funds are appropriately 
deployed so that all new motor carriers receive a strengthened and more 
enforcement-oriented new entrant audit within 18 months of beginning 
operations. My most immediate plans include focus on both improved 
standards and effective compliance. Congress has given us an 
appropriate set of tools in SAFETEA-LU to pursue further reductions in 
the number of highway deaths and injuries involving trucks and buses. 
By fully funding our SAFETEA-LU authorization levels, Congress also 
continues to improve truck safety.

    Question 2. Mr. Hill, you have a long career in highway safety and 
have served at the Federal Motor Carrier Safety Administration (FMCSA) 
now for several years. The agency's highest priority, as the law 
requires, is improving truck safety. Some have suggested that the 
agency, at times, is more concerned with the economic health of the 
industry rather than improving truck safety. As Administrator, will you 
pursue safety as the highest priority in all agency actions, even if it 
means imposing additional costs and burdens on the trucking industry?
    Answer. If confirmed by the Senate, I am committed to pursuing the 
preeminent safety mission of FMCSA: to reduce highway crashes, injuries 
and fatalities involving trucks and buses. To this end, the Agency 
undertakes research, conducts enforcement activities, distributes 
grants to our State partners, cooperates with stakeholders, and 
promulgates safety regulations. When we embark on a regulatory project, 
as directed by a Congressional mandate, National Transportation Safety 
Board recommendation, or FMCSA research, improving safety is always our 
highest priority. For example, FMCSA maintains physical standards for 
drivers, standards for securing cargo, recordkeeping requirements for 
carriers, licensing standards, and other regulations that impose costs 
and burdens on drivers, carriers and States. Like most Federal 
agencies, FMCSA is required by law to take into account cost/benefit 
considerations when it engages in rulemaking. Good safety regulations 
can be cost beneficial. As Administrator, I would work to ensure that 
FMCSA's safety actions are fair, effective, consistent, and transparent 
so all our stakeholders, including Congress, can clearly see our 
primary focus on improving highway safety and understand when and why 
our actions may impose costs and burdens on the trucking industry and 
others.

    Question 3. There are now some 700,000 motor carriers registered 
with FMCSA. Yet, the agency is conducting only 7,000 to 10,000 safety 
compliance reviews each year, equaling only a little more than one 
percent of the registered carriers. How can compliance reviews, which 
are at the heart of the Federal safety regulatory process, be regarded 
as a serious deterrent to bad safety management practices or regulatory 
violations when such a small number of reviews are conducted?
    Answer. FMCSA's mission is to reduce the number of injuries and 
fatalities associated with commercial motor vehicle crashes. To achieve 
this, FMCSA undertakes a number of enforcement activities to ensure 
compliance with the safety regulations. Through performance information 
collected on carriers and drivers, the FMCSA compliance review program 
focuses on those carriers posing the highest risk to safety as measured 
by the Agency's Safety Status Measurement System (SafeStat). SafeStat 
is an automated motor carrier safety analysis system. SafeStat uses 
carrier safety data such as roadside inspections, out of service 
violations, past enforcement history, and crash data to determine the 
level of risk posed by the carriers.
    Even with increased demands on FMCSA resources, the number of 
compliance reviews has remained steady over the past few years as FMCSA 
has expanded the number and types of activities conducted. These 
activities include onsite visits to hazardous materials carriers to 
assess security vulnerabilities, increased reviews of passenger 
carriers, and conducting safety audits on new entrant carriers. So 
while we are auditing a small percentage of all carriers, we are 
performing compliance reviews on the most serious safety offenders 
within the industry. FMCSA recognizes the need to reach more carriers 
to ensure they comply with the safety regulations and has initiated the 
Comprehensive Safety Analysis 2010 (CSA 2010) program to develop more 
efficient and effective use of Agency resources to assess the safety of 
more than 10,000 carriers per year. Together with our State law 
enforcement partners, we are developing significant revisions to our 
safety regulatory process through CSA 2010. Additionally, I am strongly 
encouraging States to add to their roadside inspection activities by 
also completing compliance reviews (CRs). FMCSA has seen the number of 
CRs performed by State personnel increase from 3,745 in FY 2004 to 
4,593 in FY 2005. There have already been 2,435 during the first 6 
months of FY 2006.

    Question 4. FMCSA's system for detecting which motor carriers are 
high safety risks has been found to be seriously flawed. The primary 
method relies on calculations performed in the Safety Status 
Measurement System, usually called ``SafeStat.'' The agency currently 
has an open docket on improving SafeStat that was published in the 
Federal Register on May 3, 2006.
    What specific actions will you take to correct the deficiencies 
identified in SafeStat discussed in the present Federal Register notice 
to guide public comment? Please provide the Committee with a date by 
which you believe all of the deficiencies identified by GAO and the IG 
will be addressed and corrected so that SafeStat will be useful in 
identifying dangerous motor carriers?
    Answer. While FMCSA continually works to improve the effectiveness 
of SafeStat, the system is an efficient, effective and useful tool for 
identifying high-risk motor carriers. In fact, the 2004 Office of 
Inspector General (OIG) report noted that compliance review results 
support the ability of SafeStat to identify high risk carriers. In 
essence, the OIG report indicated that the higher a carrier's SafeStat 
score was before a compliance review was conducted, the greater the 
likelihood the compliance review would result in a less-than-
satisfactory safety rating.
    Also, FMCSA's first effectiveness study of SafeStat yielded strong 
evidence to support the fact that carriers identified as high-risk by 
SafeStat, particularly those with high Accident Safety Evaluation Area 
(SEA) scores, are significantly more likely to be involved in a 
disproportionate number of future crashes. The 2004 OIG report 
indicated that ``this analysis is convincing'' and further suggested 
that FMCSA update the analysis. In late 2004, FMCSA updated this 
analysis and the findings were similar. Specifically, motor carriers 
identified as high-risk by SafeStat had a post-identification crash 
rate 112 percent higher than those carriers that had sufficient data to 
be evaluated but were not identified as high-risk.
    The OIG and GAO reports primarily identified limitations in the 
underlying data used by SafeSat, especially the completeness and 
timeliness of crash data reported to FMCSA by the States, and made 
recommendations intended to improve the data rather than the SafeStat 
methodology and algorithm itself. The FMCSA is pleased to report that 
we have implemented a number of data quality initiatives in response to 
the OIG and GAO reports that have already resulted in improvements. 
FMCSA is well aware that improving data quality requires a long-term 
and sustained effort and continues to build upon its recent successes 
to improve the State reporting of large truck crash and roadside 
inspection data. Congress recognized the importance of improving data 
quality by recently authorizing $11 million through FY 2009 to be used 
for safety data improvement grants and a safety data improvement 
program with the States.
    FMCSA is also striving to improve the SafeStat algorithm itself. 
The May 3, 2006, Federal Register Notice referred to in the question 
proposes enhancements to the SafeStat algorithm that we believe will 
make SafeStat even more effective. The proposed improvements would:

  <bullet> Simplify the Accident SEA;

  <bullet> Increase the number of traffic violations considered by 
        SafeStat in the calculation of driver SEA scores;

  <bullet> Increase the number of vehicle out-of-service violations 
        considered by SafeStat in the calculation of the vehicle SEA; 
        and

  <bullet> Shorten the data exposure time period considered by SafeStat 
        from 30 months to 24 months.

    The Federal Register Notice is itself a response to an OIG 
recommendation to ``establish processes for soliciting public comment 
on proposed changes in SafeStat calculations, to include those changes, 
if any, resulting from the revised effectiveness study.'' Detailed 
information on these proposed changes can be found at http://
ai.fmcsa.dot.gov/SafeStat/enhancements.asp. The FMCSA expects to 
implement changes before the end of calendar year 2006.

    Question 5. There are still numerous overdue regulatory actions, 
reports, and pilot programs that FMCSA has either not undertaken or has 
left unfinished stretching back for more than 15 years.
    Please provide the Committee with a list of overdue and delayed 
regulatory actions, those mandated by Congress and those included in 
your semi-annual regulatory agenda as well as deadlines for initiation 
and completion.
    Answer.

                     Overdue and Delayed Rulemakings
------------------------------------------------------------------------
                                       Scheduled
       Title         Initiation   Completion Date of        Statute
                        Date          Next Action
------------------------------------------------------------------------
Medical               07/15/1993  Notice of Proposed  Motor Carrier
 Qualification                     Rulemaking 11/06    Safety
 Requirements As                                       Improvement Act
 Part Of The CDL
 Process \1\
Railroad-Highway      08/16/1994  Notice of Proposed  Hazardous
 Grade Crossing                    Rulemaking 09/07    Materials
 Safety \2\                                            Transportation
                                                       Authorization Act
Hours of Service      08/26/1994  Final Rule 10/06    Hazardous
 of Drivers;                                           Materials
 Supporting                                            Transportation
 Documents \3\                                         Authorization Act
Unified               01/01/1996  Supplemental        Interstate
 Registration                      Notice of           Commerce
 System (Includes                  Proposed            Commission
 several sections                  Rulemaking 06/07    Termination Act &
 changed by                                            Safe,
 SAFETEA-LU) \4\                                       Accountable,
                                                       Flexible,
                                                       Efficient
                                                       Transportation
                                                       Equity Act: A
                                                       Legacy For Users
Brokers of            05/12/2003  Notice of Proposed  Safe, Accountable,
 Household Goods                   Rulemaking 10/06    Flexible,
 Transportation by                                     Efficient
 Motor Vehicle                                         Transportation
                                                       Equity Act: A
                                                       Legacy For Users
Inspection,           02/18/2004  Notice of Proposed  Safe, Accountable,
 Repair, and                       Rulemaking 10/06    Flexible,
 Maintenance of                                        Efficient
 Intermodal                                            Transportation
 Container Chassis                                     Equity Act: A
 \5\                                                   Legacy For Users
Electronic On-          07/22/05  Notice of Proposed  Interstate
 Board Recorders                   Rulemaking 10/06    Commerce
 for Hours-Of-                                         Commission
 Service                                               Termination Act
 Compliance
National Registry       10/24/05  Notice of Proposed  Safe, Accountable,
 of Certified                      Rulemaking 11/06    Flexible,
 Medical Examiners                                     Efficient
                                                       Transportation
                                                       Equity Act: A
                                                       Legacy for Users
------------------------------------------------------------------------
Source: ``Report on Department of Transportation Significant Rules''
  dated July 2006. This report is available to the public from the
  Department's website and provides the most current information on the
  schedule of rules.
\1\ This rule had no statutory deadline; is in final clearance; and will
  align with our enhanced medical program.
\2\ This rule had a 1995 statutory deadline and was delayed as the
  initial NPRM resulted in exceedingly high costs and was overly broad.
  A new rulemaking reflecting current data is underway.
\3\ This rule had a 1996 statutory deadline and is at the Office of
  Management and Budget for final review.
\4\ As a result of SAFETEA-LU, the Agency needs to supplement its 2005
  NPRM. An ANPRM was published in 1996.
\5\ SAFETEA-LU required a final rule within one year of enactment.


    Question 6. FMCSA has just issued its final report on the Large 
Truck Crash Causation Study in March. Yet, the agency to date has 
basically failed to acknowledge any of the criticisms or incorporate 
almost any of the suggestions documented in reports from the 
Transportation Research Board of the National Academy of Sciences, from 
the Centers for Disease Control, and national truck safety 
organizations that were directed a few years ago to evaluate the LTCCS. 
What specific actions are you taking in response to the criticisms to 
the Bus Crash Causation Study that you are currently conducting?
    Answer. FMCSA issued a report to Congress in March on the initial 
findings from the Large Truck Crash Causation Study (LTCCS). This 
report should not be considered a final report because FMCSA and other 
research organizations are continuing to conduct additional analyses of 
specific crash factors over the next several years using the LTCCS 
database. In CY 2000, FMCSA contracted with the Transportation Research 
Board (TRB) of the National Academy of Sciences to review the LTCCS 
(section 224 of the Motor Carrier Safety Improvement Act of 1999 
required FMCSA to consult with persons with expertise on crash 
causation, commercial vehicles, drivers, carriers, Federal and State 
highway safety programs, and research methods and statistical 
analysis). During that three-year review, FMCSA made a number of 
changes to the data collection forms and data collection protocols that 
incorporated the TRB Committee's input. While recognizing that a survey 
of this kind has inherent limitations, both the TRB Committee and the 
Centers for Disease Control and Prevention recognized that the LTCCS 
would be an important data resource on truck crash causes. 
Specifically, the TRB recognized the LTCCS as a ``landmark undertaking 
of great potential importance to highway safety.'' FMCSA plans to use 
the LTCCS to formulate hypotheses for the conduct of additional in-
depth studies to examine certain key causation factors that cannot be 
adequately addressed with the current dataset.
    The study approach for the LTCCS and the Bus Crash Causation Study 
(BCCS) are very different. Serious crashes involving interstate regular 
route and charter bus service constitute only about 1 percent of the 
commercial motor vehicle crashes for which FMCSA has responsibility. 
Since these types of bus crashes are so rare, it is impossible to 
obtain a nationally representative sample of motorcoach crashes in a 
useful timeframe. FMCSA decided to focus bus study data collection in 
New Jersey, which has a high volume of motorcoach travel and a large 
number of smaller buses that operate in the congested Northeast corner 
of the State. Many of the data collection protocols for the BCCS are 
similar to the LTCCS. However, in the BCCS, a trained crash 
investigator and a State commercial vehicle inspector arrive at the 
crash scene as soon after the crash as is possible. The investigator 
collects numerous data items and the State inspector conducts a North 
American Standard Level 1 inspection on the involved vehicle to 
determine if any vehicle factors contributed to the crash. The data are 
coded by trained contractor staff, reviewed by outside crash experts, 
and entered into an electronic database. FMCSA did consider the TRB, 
CDC, and other organizations' comments on the LTCCS and have 
incorporated several changes into the BCCS. For example, as a result of 
the comments, FMCSA reduced the number of data elements collected in 
the BCCS by eliminating those that we determined had no relationship to 
pre-crash factors, we placed increased emphasis on crash notification, 
and we simplified the resulting database that will be produced.

    Question 7. The U.S. Government Accountability Office issued a 
detailed report in December 2005 that found that FMCSA's administration 
of MCSAP was inadequate, and that several states had not complied with 
all of their obligations under the program, including failures of 
timely and accurate data collection and transmission to FMCSA. GAO also 
found that FMCSA had no meaningful and reliable quantitative measures 
of how well or badly states were performing with the use of MCSAP 
funds, and that the agency has not appropriately monitored the 
development of state safety plans for receiving Federal funds. This 
includes a failure of FMCSA to have completed its own internal MCSAP 
oversight reviews for the past 3 years. What are you doing to remedy 
these mistakes and ensure that MCSAP is awarding funds properly and in 
a timely manner to get measurable motor carrier safety payoffs?
    Answer. In the spring of 2006, FMCSA sent a planning memorandum to 
the States in order to provide direction and priority areas to address 
in their Commercial Vehicle Safety Plan (CVSP). State agencies receive 
funding only after submitting an approved CVSP demonstrating a 
performance-based approach to improving CMV safety reflecting the 
priorities established in the planning memorandum. CVSPs are required 
to be completed each year and must contain an evaluation of the 
previous year's activities and any problems encountered. Problems 
identified as a result of those CVSP activities should be addressed as 
new State-specific objectives. The evaluation should discuss problems 
addressed; the strategies, activities, and effort applied; performance 
measures; modifications that were necessary; and outcomes. Once an 
objective has been accomplished and the evaluation completed, the 
objective will no longer appear in the CVSP. Each CVSP and the safety 
activities proposed must be developed based on quality data, 
implemented as planned, continually reviewed and adjusted according to 
in-process results, and thoroughly evaluated annually. Based upon the 
evaluation results, subsequent CVSP activities are modified and 
directed toward effective safety strategies.
    Additionally, FMCSA is in the process of implementing a National 
Motor Carrier Safety Assistance Program (MCSAP) Management and 
Performance Review Program. The MCSAP Review Program is a national 
standardized process to evaluate State compliance with related Federal 
MCSAP requirements and to assess the State's commercial motor vehicle 
(CMV) safety program's overall performance. The program is composed of 
three review elements:

        1. Regulatory review to determine if the State's laws, 
        regulations, administrative procedures, and operational 
        practices conform to MCSAP regulations, policies and 
        procedures, to ensure compliance with regulatory requirements.

        2. Financial review to determine the State's compliance with 
        the conditions of FMCSA grant agreements, Federal regulations, 
        and applicable Office of Management and Budget circulars. This 
        portion of the review process is currently given special 
        emphasis to verify appropriate expenditures of Federal funds 
        and to track specific MCSAP grant activities.

        3. Safety and Program Performance review to assess the State's 
        safety planning and CMV safety activities including the State's 
        formulation of a performance-based Commercial Vehicle Safety 
        Plan through analysis of safety data.

    There have been four MCSAP Reviews (Montana, Mississippi, West 
Virginia, and Ohio) performed to date. FMCSA is currently in the 
process of procuring a contractor to provide support for the MCSAP 
Review Program. It is anticipated that the contract will be awarded by 
the end of this Fiscal Year so that additional reviews can begin in FY 
2007.
    This effort will increase the effectiveness of State CMV safety 
programs by providing FMCSA information that will allow the Agency to 
assist the States in focusing on improving their safety performance and 
planning activities. The MCSAP Review Program will also provide 
feedback to the State to facilitate the exchange of ideas, promote 
operational efficiency, and promote Federal/State cooperation and 
partnership in making program improvements and achieving greater 
benefits to reduce CMV-related fatalities and injuries.
    Additionally, FMCSA has created an internal workgroup tasked with 
developing revised uniform guidelines for the administration of MCSAP 
to ensure consistent grant oversight and program management procedures 
Agency-wide. These guidelines will be included in the Agency's Field 
Operations Training Manual (FOTM). It is anticipated that the 
administrative guidelines will be ready for inclusion in the FOTM by 
January, 2007.

    Question 8. Congress first required the Secretary to deal with 
training standards for entry-level truck drivers in 1991. Although an 
agency contracted Adequacy Report on driver training documented the 
need for entry-level skills training, and the independent Model 
Curriculum made numerous recommendations, the final rule issued by 
FMCSA in 2004 addressed only four marginal areas and did not include a 
requirement for training in the skills necessary to safely operate a 
large truck. For this reason, when the agency was sued in Federal court 
the U.S. Court of Appeals issued a unanimous decision remanding the 
issue to the agency for further action. When does the agency plan to 
act to respond to the court's decision and opinion? Will you include a 
proposal for actual on the road training as part of this rule?
    Answer. FMCSA intends to initiate a rulemaking in response to the 
court's decision in late 2006 or early 2007. Research efforts currently 
underway, both by FMCSA and by major stakeholders, are likely to 
provide important information relevant to determining mandated behind-
the-wheel training. These research projects will be completed in 2006. 
FMCSA believes it is essential to complete this and other research 
prior to initiating the new driver training rule.
    When FMCSA initiates the entry-level driver training rulemaking, 
the Agency will describe in detail its efforts to gather accurate and 
useful data concerning driver training and request public comment about 
entry-level driver training. It is too early in the rulemaking process 
to discuss the scope of the forthcoming rulemaking notice. However, the 
Agency will consider the most up-to-date research and safety data in 
developing a regulatory approach to address the court's decision, as 
well as in proposing a rule that reflects safety benefits.

    Question 9. FMCSA indicates that it intends to increase emphasis on 
driver safety and decrease emphasis on vehicle condition because of 
findings in the Large Truck Crash Causation Study (LTCCS) that the 
overwhelming reason for crashes is driver error, not failures of 
vehicle systems. However, the final LTCCS report contains a table 
showing that of the trucks in the study sample that were investigated 
following a crash, 29.4 percent of them had suffered some form of brake 
failure. This percentage of bad brakes on the crash-involved trucks is 
deeply troubling and a strong indication that FMCSA should in fact 
increase its oversight and enforcement emphasis on ensuring that large 
trucks have all operating systems necessary for safe travel in good 
condition and do not have any dangerous mechanical problems. Why are 
you de-emphasizing inspecting trucks for mechanical and physical 
condition?
    Answer. FMCSA's emphasis on driver safety performance is part of a 
comprehensive strategy to use the best-available data on heavy truck 
and bus safety to manage our enforcement resources in the most 
effective manner possible to reduce fatalities and injuries on the 
Nation's highways. There has been a steady decrease in the rate of 
fatal crashes involving CMVs since national statistics were collected. 
Still, the number of people killed in crashes involving CMVs remains 
too high (5,190 in 2004, the last year reported). Large trucks remain 
over-represented as a total of all fatal crashes--they represent a 
small fraction of registered motor vehicles but they are involved in 12 
percent of fatal crashes on the Nation's highways.
    Recent studies, including FMCSA's LTCCS, continue to emphasize the 
part that drivers play in crash causation and avoidance. In the LTCCS, 
CMV driver action or inaction was determined to be the ``critical 
reason'' for the crash in 87 percent of the crashes where the primary 
cause of the crash was attributed to the CMV. We believe that given 
this data, it is appropriate to focus much more attention on CMV 
drivers and to put into place improved driver-related programs and 
regulations to significantly decrease the number of fatalities and 
injuries caused by truck and bus crashes.
    With regard to the LTCCS data concerning brakes, the report 
indicates that the condition of the brakes was determined to be an 
``associated factor'' in 29.4 percent of crashes. Associated factors 
are selected from a broad range of items that contribute to the risk of 
having a crash. However, no judgment was made as to whether these 
factors contributed to a particular crash, just whether it was present. 
``Brakes failed'' was coded as a critical reason in only 1 percent of 
crashes while ``degraded braking capacity'' was coded as the critical 
reason in 3 percent of crashes. Therefore, the LTCCS data indicate that 
driver action or inaction played a greater role in crash causation than 
the condition of the brakes on the CMV.
    While FMCSA is placing a greater emphasis on driver safety 
performance, the Agency and its State partners will continue to conduct 
roadside inspections to identify and remove from operation unsafe 
drivers and vehicles. The roadside inspection program is an important 
part of our safety strategy and a valuable tool for deterring 
violations of the Federal Motor Carrier Safety Regulations. Vehicle 
inspections will remain a vital part of promoting highway safety.

    Question 10. A new Unified Carrier Registration (UCR) plan for the 
Nation's trucking industry has been mandated by SAFETEA-LU to replace 
the Single State Registration System which is repealed by the same law 
on January 1, 2007. SAFETEA-LU also establishes a new Board of 
Directors who will be responsible for issuing rules and regulations for 
the states to implement the UCR, including a new carrier fee structure 
that will provide SSRS replacement revenue for the states.
    I am informed by State officials that unless FMCSA completes its 
process by September the state agencies responsible for UCR will have a 
very difficult time implementing their program by January 1, 2007, 
resulting in a loss of revenue. Do you expect the UCR Board to complete 
its work in time for the states to fully implement the plan by January 
1, 2007 so that a revenue shortfall for the states will be avoided?
    Answer. No, we do not expect the UCR Board to complete its work in 
time for States to fully implement the plan by January 1, 2007. FMCSA 
established the Board of Directors responsible for developing the UCR 
plan and agreement on May 12, 2006. The Board of Directors held its 
first meeting on June 13, 2006. During the meeting, the Board of 
Directors adopted a unanimous resolution that there should be an 
extension of the repeal of the Single State Registration System (SSRS) 
for an additional year until January 1, 2008, in order to provide 
sufficient time to develop and implement the UCR plan and agreement.
    Issues listed by the Board of Directors that require the extension 
include:

  <bullet> A UCR Agreement must be developed;

  <bullet> States must pass enabling legislation (in States where 
        needed);

  <bullet> States' UCR Plans must be developed and approved;

  <bullet> SSRS data necessary to determine fees under the UCR must be 
        collected;

  <bullet> New motor carrier industry participants must be educated, 
        which will be required to meet the UCR requirements.

    Question 11. Do you think SAFETEA-LU's timetable of 12 months 
within which to complete the UCR plan is enough time? If not, would you 
support an extension of the January 1, 2007, deadline to give the 
states enough time to implement the plan?
    Answer. No, FMCSA does not believe a timetable of 12 months to 
complete the UCR plan is enough time. FMCSA's experience in the 1990s 
demonstrated that the complexities involved when working with the 
States toward establishing the International Registration Plan (IRP) 
and the International Fuel Tax Agreement (IFTA) were numerous and 
challenging. The development of the IRP and IFTA agreements took nearly 
3 years to complete.
    Similar to the IRP and IFTA agreements, the development of the UCR 
plan will require the Board of Directors and the States to: (1) design 
a proposed plan that meets all functional requirements, and (2) 
identify and resolve significant State-specific operational, 
administrative and funding issues associated with implementing the 
plan. The design and issue resolution process, while time-consuming, is 
critical to building a strong State consensus for an effective and 
uniform agreement that all States can accept and successfully 
implement. A time extension for the UCR deadline would be warranted.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Andrew B. Steinberg

    Question 1. Two hundred and seventy-one Members of the House voted 
against the Federal Aviation Administration (FAA) and the actions it 
has taken to unilaterally impose the agency's last best contract offer 
on the National Air Traffic Controllers Association (NATCA). The vote 
failed by a mere eight votes to obtain the two-thirds needed to pass on 
the House suspension calendar. While the FAA may see it as a 
``victory,'' it does not bode well for their actions. You played a key 
role in managing the FAA, serving as its Chief Counsel. With the 
Administration now moving forward to implement its last-best contract 
offer on NATCA, I am concerned that the collective bargaining process 
has been diminished and that this option contributes to an already 
stressful atmosphere that is not conducive to safety. Did you recommend 
or counsel that sending the FAA contracts to the Congress for 
resolution was the best way to resolve this contract dispute?
    Answer. I have never believed that impasse was the best way--or 
even a desirable way--to resolve the dispute, nor do I view the actual 
resolution of this dispute as a ``victory.'' The goal going into any 
kind of negotiation, particularly collective bargaining, is to obtain 
an agreement, and during my career I have prided myself on my ability 
to facilitate settlements even in the most contentious of situations. 
In advising the Administrator and our negotiators on the statutory 
framework for the negotiations, therefore, I viewed a voluntary 
agreement as the best way to achieve our primary goal. Thus, I 
consistently recommended to my clients that we pursue every reasonable 
possibility of obtaining an agreement.
    While the optimal outcome would have been a voluntary agreement 
with NATCA, and the parties resolved many work rules, fundamental 
economic issues separated them. In the end, in my judgment, a complete 
agreement with NATCA became impossible because of the huge gap between 
the parties on new hire pay scales and automatic pay hikes. But I was 
as disappointed as anyone that an agreement was not reached.

    Question 2. The Fiscal Year (FY) 2006 final Emergency Supplemental 
Appropriations package stripped out a provision that would have stopped 
the Department of Transportation (DOT) from issuing a final rule that 
would allow foreign control of U.S. air carriers. We confronted this 
problem with the Dubai Ports issue fairly recently. Yet, the Department 
somehow parsed the words ``actual control'' in a way that would allow 
foreign investors to take effective control over the economic decisions 
of a U.S. air carrier. You are a lawyer by trade, and worked for a 
number of large corporations. Please explain how companies will 
overcome the complex corporate governance challenges they will face if 
primary corporate activities are controlled by a foreign entity, 
including key economic decisions like aircraft purchases, while 
security and safety would be segmented off?
    Answer. I have not been closely involved in the formulation of the 
proposed rule you refer to. However, I will attempt to answer your 
questions on this topic to the best of my knowledge, offering my 
perspective and past experience as a lawyer at a major airline and as 
general counsel and corporate secretary in the private sector. Also, as 
I am sure you can appreciate, because my pending nomination subjects me 
to DOT's regulations limiting ex parte communications on pending 
matters, I cannot provide specific comments as to how this rule, if 
adopted, would be applied. As the docket for the particular rule does 
not close until July 5, 2006, I would not want any of my comments here 
to be misconstrued as indicating any intention by DOT (or me, should I 
be confirmed) as to finalizing or modifying the proposed rule.
    Complex corporate governance arrangements are not unusual in the 
private sector. I have direct experience dealing with such arrangements 
in the context of public corporations that are controlled by a single, 
majority shareholder who must meet fiduciary obligations to minority 
shareholders. While I would agree that such arrangements make 
governance much more cumbersome as a formal matter, my practical 
experience is that they are not in the end unworkable.
    While it is difficult to predict how any particular corporation 
would deal with the challenge of ``segmenting off'' decisions 
concerning safety, homeland defense obligations, and the like from 
foreign influence, I believe this could be handled by including 
specific delegations of authority from the corporation's board of 
directors that would restrict decisionmaking authority on those items 
to a group of specifically identified U.S. citizens. These limitations 
might also be spelled out in the transactional documents reflecting the 
underlying investment. They could be reviewed for compliance by the 
company's outside auditors. I would expect that, over time, as DOT was 
presented with proposed arrangements for its consideration and 
precedent developed, it would become relatively clear to airline 
management and their potential investors which practices would pass 
muster.

    Question 3. We learned a tough lesson after September 11, 2001, 
about the shortcomings in our Nation's aviation security. In response, 
we set up an entirely new regime on how to deal with security problems 
and issues, including better communications with senior management at 
the carriers. How do you envision communicating critical security 
information to a carrier that is under foreign control or influence?
    Answer. Although DOT (including FAA) no longer has primary 
responsibility for aviation security, my understanding is that the 
Transportation Security Administration (TSA) has worked out 
communications protocols with the various foreign carriers that serve 
the United States. It is also my understanding that TSA regularly 
exchanges critical security information with its counterparts overseas, 
which presumably is then shared with foreign air carriers on a routine 
basis. Foreign and domestic air carriers both have common interests in 
wanting to prevent any act of terrorism. Therefore, I do not envision 
the exchange of such information posing a challenge to maintaining our 
homeland security, so long as that exchange is carefully managed.
    Should the proposed rule be finalized, I would expect that critical 
security information would be communicated by TSA (and in some 
instances, DOT) to the U.S. citizens specifically designated by the 
airline to receive such information. My understanding of the proposed 
rule is that it would require that the U.S. citizens with principal 
responsibility for compliance with security regulations be readily 
available to the Federal Government when such information must be 
communicated.

    Question 4. The DOT claims that under its proposal, ``actual 
control'' will always rest with U.S. citizens because any foreign 
control acquired would be subject to revocation. How significant a 
regulatory burden do you anticipate the DOT will face if it is to 
effectively oversee, and ensure that foreign control can be 
``revoked,'' as explained in the preamble to the proposed rulemaking?
    Answer. My understanding of the SNPRM is that delegations of 
authority to foreign interests must be revocable by U.S. citizens. I do 
not anticipate that this would be create a significant regulatory 
burden, as presumably such delegations would be presented to DOT at the 
time the carrier first sought approval for a capital investment from 
non-U.S. citizens. Moreover, given the consequences of failing to abide 
by these delegations, I would anticipate few compliance issues, should 
the rule be finalized.

    Question 5. Do you agree that the Secretary of Transportation is 
required to consider several objectives as being in the public 
interest, including: keeping available a variety of adequate, economic, 
efficient, and low-priced air services; encouraging, developing, 
maintaining an air transportation system relying on actual and 
potential competition; encouraging entry into air transportation 
markets by new and existing air carriers and the continued 
strengthening of small air carriers to ensure a more effective and 
competitive airline industry?
    Answer. Yes, without reservation. The objectives you cite are 
specifically listed in the Federal Aviation Act, and if confirmed, I 
would take seriously my obligation to fulfill those objectives as we 
formulate policy and carry out the various programs authorized by 
Congress.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                              John H. Hill

    Question 1. As Administrator, can you confirm that you will make a 
determination as to the safety impacts of every issue concerning 
proposals or positions on changing the standards for truck length or 
weight on U.S. highways that the Administration considers?
    Answer. If confirmed by the Senate, I will ensure that FMCSA 
provides the Secretary with information about the potential safety 
impacts of legislative proposals concerning the Federal size and weight 
statutes. The Federal Highway Administration (FHWA) administers the 
statutory provisions concerning truck size and weight limits and 
assessing the impacts of potential changes on the Nation's 
infrastructure. FMCSA will work with FHWA to ensure that safety impacts 
are considered as part of the analysis of any legislative proposals 
concerning truck size and weight.
    The Department recognizes concerns about the impact that increases 
in truck size and weight limits, including the elimination of certain 
restrictions on Longer Combination Vehicles (LCVs), would have on the 
Nation's highways. The current statutory restrictions on truck size and 
weight and LCV operations limit action on this issue prior to the next 
surface transportation reauthorization bill.
    To ensure the safe operation of LCVs, FMCSA has regulations (49 CFR 
Part 380) establishing minimum requirements for LCV drivers and LCV 
driver instructors. The rule covers drivers that operate any 
combination of a truck tractor and two or more trailers and semi 
trailers, with a gross combination weight greater than 80,000 pounds, 
and which operate on the National System of Interstate and Defense 
Highways.

    Question 2. What are you priorities for completing FMCSA 
rulemakings?
    Answer. Rulemaking is a vital part of the FMCSA mandate to improve 
highway safety. As Assistant Administrator and Chief Safety Officer of 
FMCSA over the past 3 years, I have directed FMCSA staff to improve the 
process of how our Agency responds to important Congressional direction 
for regulatory action. If confirmed as Administrator, I will work to 
ensure that all regulations, particularly those mandated by Congress in 
SAFETEA-LU, are well written, enforceable and timely, with particular 
emphasis given to regulations that fall within our developing medical 
program and those that support the findings of the Large Truck Crash 
Causation Study as to the critical role that the driver plays in the 
majority of highway crashes.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            Donna R. McLean

    Question. President Bush has recommended a funding level for Amtrak 
which would require a shutdown of the national passenger rail system. 
From what you know about the company's finances, is a 900 million-
dollar Federal appropriation enough to maintain a safe and reliable 
national system of rail service?
    Answer. Transportation safety is always my number one priority. 
Safety has always been the top priority for the Department of 
Transportation, regardless of the Administration. Fortunately, 
transportation safety has continued to improve; including Amtrak's 
safety record. However, that safety record does not happen without a 
dedicated team and resources. if confirmed, I would continually monitor 
Amtrak's safety record and safety indicators and immediately alert the 
Committee if these indicators deteriorate. Even with a constrained 
funding level, maintaining a safe system has to be our top priority.
    The reliability of a rail system is also very important. Amtrak has 
had a mixed record on reliability. This reliability record has been 
blamed on several factors, including the sharing of rails with freight 
operators, and limited capital investment. From what I currently know 
about Amtrak's finances, a $900 million investment would primarily 
support operating expenses and limit capital investments. if confirmed, 
I would want to explore the concerns raised by Amtrak employees 
regarding the use of shared rails. Regardless of the Federal grant, 
these agreements are crucial to improve the reliability of the system.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Andrew B. Steinberg

    Question 1. Did you advise Federal Aviation Administration 
officials that Title 49 of the U.S. Code, Section 40122, applies to 
FAA's bargaining with its unions over working conditions, rather than 
Title 5 of the U.S. Code, chapter 71?
    Answer. The current framework for collective bargaining at the FAA 
is unique within the Federal Government and was established when 
Congress enacted ``personnel reform'' for the agency as part of the 
1996 transportation appropriations act. The law required the Agency to 
put in place a new personnel management system by April 1996. 
Initially, the personnel reform amendments to the FAA's statute 
excluded the agency from coverage under Title 5, Chapter 71. In March 
1996, Congress restored coverage under Title 5, Chapter 71. However, in 
October 1996, the Agency's statute was amended again explicitly to bar 
the Administrator from negotiating with labor unions over compensation 
and benefits--except under limited circumstances in which the Agency 
was making changes in the personnel system first put in place in April 
of that year.
    The same law also created a new method for resolving impasses that 
acted as an exception to Chapter 71. Specifically, the law provided 
that in the event the negotiating parties reached impasse over any 
changes to the personnel management system, then following Federal 
mediation, the Administration could implement its proposal 60 days 
after submitting its proposal to Congress. (49 U.S.C. Sec. Sec. 106(l) 
and 40122(a)). The language is not limited to changes concerning 
compensation and benefits. The personnel management system that was 
first put in place in April, 1996 has included a wide range of policies 
and procedures going well beyond compensation and benefits, including 
hiring, employee and labor management relations, learning and 
development, performance management, leave, work schedules, and many 
other topics. By establishing different working conditions for 
unionized work groups, each collective bargaining agreement entered 
into by the agency has accordingly been treated as a change to the 
personnel management system for that workgroup since 1996, well before 
my tenure at the FAA.

    Question 2. Many Members of the legislative branch have registered 
significant displeasure with the Administration's Notice of Proposed 
Rulemaking on foreign ownership and control of U.S. airlines. How will 
you handle Congressional concerns with the proposal?
    Answer. As I am sure you can appreciate, because my pending 
nomination subjects me to DOT's regulations limiting ex parte 
communications on pending matters, I cannot provide specific comments 
as to how this rule, if adopted, would be applied to address 
Congressional concerns. Although I have not been closely involved in 
the formulation of the proposed rule, I am well aware of the 
significant concerns expressed by Members of Congress concerning the 
proposed rule on foreign investment in U.S. air carriers. As I prepared 
for my confirmation hearing, and considered the potential 
responsibilities of the Assistant Secretary position, I made a point of 
educating myself about those concerns. If the rule is adopted and if I 
am confirmed, I pledge to work closely with the Congress to ensure that 
the rule is administered in such a way as to protect the public 
interest in maintaining a safe and secure aviation system that fully 
meets the Nation's homeland defense needs.

                    Appendix--Excerpts from Title 49

    49 U.S.C. Sec. 106 (Federal Aviation Administration) provides:
    (l) Personnel and services--

        (1) Officers and employees--Except as provided in subsections 
        (a) and (g) of section 40122, the Administrator is authorized, 
        in the performance of the functions of the Administrator, to 
        appoint, transfer, and fix the compensation of such officers 
        and employees, including attorneys, as may be necessary to 
        carry out the functions of the Administrator and the 
        Administration. In fixing compensation and benefits of officers 
        and employees, the Administrator shall not engage in any type 
        of bargaining, except to the extent provided for in section 
        40122(a), nor shall the Administrator be bound by any 
        requirement to establish such compensation or benefits at 
        particular levels.

    49 U.S.C. Sec. 40122. (Federal Aviation Administration personnel 
management system) provides:

    (a) In general--

        (1) Consultation and negotiation--In developing and making 
        changes to the personnel management system initially 
        implemented by the Administrator of the Federal Aviation 
        Administration on April 1, 1996, the Administrator shall 
        negotiate with the exclusive bargaining representatives of 
        employees of the Administration certified under section 7111 of 
        title 5 and consult with other employees of the Administration.

        (2) Mediation--If the Administrator does not reach an agreement 
        under paragraph (1) with the exclusive bargaining 
        representatives, the services of the Federal Mediation and 
        Conciliation Service shall be used to attempt to reach such 
        agreement. If the services of the Federal Mediation and 
        Conciliation Service do not lead to an agreement, the 
        Administrator's proposed change to the personnel management 
        system shall not take effect until 60 days have elapsed after 
        the Administrator has transmitted the proposed change, along 
        with the objections of the exclusive bargaining representatives 
        to the change, and the reasons for such objections, to 
        Congress. The 60-day period shall not include any period during 
        which Congress has adjourned sine die.

    (g) Personnel Management System--

        (1) In generaL--In consultation with the employees of the 
        Administration and such nongovernmental experts in personnel 
        management systems as he may employ, and notwithstanding the 
        provisions of title 5 and other Federal personnel laws, the 
        Administrator shall develop and implement, not later than 
        January 1, 1996, a personnel management system for the 
        Administration that addresses the unique demands on the 
        agency's work force. Such a new system shall, at a minimum, 
        provide for greater flexibility in the hiring, training, 
        compensation, and location of personnel.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            R. Hunter Biden

    Question 1. Mr. Biden, you come highly recommended based on your 
past experiences. You have an opportunity to step in, be creative, and 
really help our Nation's passenger rail system. You know this is not an 
easy job and are well prepared to face the challenges ahead. How you 
will approach the problems facing Amtrak, from the lack of funding to 
the need to make major investments and reduce costs?
    Answer. If confirmed, I believe that the primary challenge for 
Amtrak is maintaining a comprehensive national rail system that is 
safe, efficient and cost-effective. I will do everything in my power to 
make sure that Amtrak is able to do that with the funds available to 
it.

    Question 2. This Committee has worked hard on a reauthorization 
plan for Amtrak, favorably reporting S. 1516, sponsored by Senators 
Lott and Lautenberg, Stevens, Hutchison and myself last year. Are you 
familiar with this proposal and do you have comments regarding it?
    Answer. I am familiar with it and I commend you and the other 
sponsors for authoring a piece of legislation which goes a long way 
toward solving many of the problems faced by Amtrak. I look forward to 
working with Members of this Committee and Congress to make sure that 
Amtrak does many of the things called for in this legislation.

    Question 3. What do you believe the Federal Government's role 
should be in the financing of Amtrak's capital and operating needs? 
What role should the states and the private sector have?
    Answer. Amtrak benefits many different stakeholders throughout our 
Nation. As such, I believe that Amtrak should be a true public sector/
private sector partnership and that the Federal Government, state 
governments and the private sector should all share some of the burden 
required to make a safe, efficient and cost-effective national rail 
system a reality. In an era of rising energy costs, there is no 
question that the public and private sectors should do all they can do 
to make sure our rail system is as healthy as it can be.

    Question 4. Do you support Amtrak's operation of a comprehensive 
national system or do you believe Amtrak should focus on developing 
short distance corridors that connect city pairs in densely populated 
regions? Or should Amtrak continue to develop both?
    Answer. Amtrak should continue to do both. Amtrak must be a 
comprehensive national system, but at the same time needs to look at 
developing short distance corridors that connect city pairs in densely 
populated regions to maximize revenue. There is no question that Amtrak 
can do both and it must. If confirmed, I look forward to working with 
this Committee and with Congress to make this a reality.

    Question 5. One of the immediate issues facing Amtrak is 
appropriations for the coming year. Amtrak requested approximately $1.6 
billion in capital and operating funds for Fiscal Year (FY) 2007. The 
Administration requested only $900 million, which former Amtrak 
President David Gunn consistently stated was a shutdown number when the 
Administration proposed such funding levels in previous years. If 
history is a guide, Amtrak will probably not get the $1.6 billion it 
says it needs. As an Amtrak Board member, where will you recommend 
Amtrak should focus its limited funds next year?
    Answer. If confirmed, I am willing to consider any option to make 
sure Amtrak operates at full capacity with the limited funds it 
receives. I know that there are a number of intriguing and creative 
cost-cutting measures that Amtrak is looking at and I believe a number 
of them can be implemented to make sure that Amtrak continues to 
operate safely and efficiently. Should Amtrak be forced to cut services 
due to budget cuts, my first priority will always be to the passengers 
and to making sure that they still receive the best service possible 
and that it is provided in a manner that doesn't sacrifice their 
safety.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Mark V. Rosenker

    Question 1. As Chairman, how will you work with the other Board 
members to ensure they are involved in all key decisions facing the 
Board, including management decisions, which impact the ability of the 
Board to meet its mission?
    Answer. I have placed and will continue to place significant 
emphasis on communications with my fellow Board Members. During my 
tenure as Acting Chairman, I have made a concerted effort to improve 
communications throughout the Board, among NTSB staff, and between 
staff and the Board members. Clearly, we have improved markedly over 
the past year.
    Office Directors at the Board prepare weekly reports that detail 
the activities of their respective offices for the week and important 
activities anticipated for the following week. In the past, these 
reports were only available to the Managing Director and the Chairman. 
As the Acting Chairman, I directed that my fellow Board Members be 
included in the distribution of these reports. Also, we have initiated 
quarterly management briefings for the Board Members. In these meetings 
the Managing Director and General Counsel brief and discuss management 
and administrative practices and activities of the agency with the 
Board Members. This level of inclusion and engagement did not 
previously exist for Board Members. We have reinstated quarterly 
accident briefings on the status of recently opened investigations. I 
have also directed the Managing Director to make our management 
information, production schedules and other calendars and databases 
available to the Board Members online, so that they may ascertain the 
status of Board activity at any time. And I have directed the Managing 
Director and executive leadership team to revise several key Board 
Orders to ensure the Board's inclusion and participation in critical 
mission activities.
    Finally, as Acting Chairman, I have reinstated the policy that any 
testimony that is being given before Congress, state legislative bodies 
and letters which are being sent to other government agencies are 
reviewed and available for comment by all Board Members. These 
documents include budget submissions to the Office of Management and 
Budget and the Congress. I have also insisted that the development of 
the agency's Strategic Plan incorporate this collaborative process.
    As Acting Chairman, and if confirmed as Chairman, I remain 
cognizant of my responsibility as the designated chief executive of the 
agency. Since becoming Acting Chairman, I have been committed to 
greater inclusion of the Board Members in the mission activities of the 
NTSB. I have sought to keep them fully informed and engaged in the 
management decisions of the agency. At the same time, I have attempted 
to improve our internal staffing and document management practices so 
that the Board Members could participate in this level of activity 
without slowing the day-to-day business of the organization. I believe 
we are improving in all our activities, and are close to striking the 
right balance in the decision-making process within this important 
Federal agency.

    Question 2. Will you commit to this Committee that all Board 
members will have adequate and proper access to any information they 
need that is being developed by agency's staff?
    Answer. As mentioned in my response to Question 1, since assuming 
my duties as Acting Chairman, I have directed staff to create and 
sustain an array of communications practices that distribute management 
information to the Board Members. This information covers accident 
investigation report development, administrative matters, planning 
documents, personnel and manning information, and financial reports on 
a routine basis. This information is regularly updated and is now 
available to the Board Members to review and use as frequently as they 
wish. And as mentioned previously, Board Members now receive weekly 
reports on activities from each of the operating offices, they 
participate in quarterly management meetings and are briefed quarterly 
on the progress and status of accident investigation activities.
    I have made sure that those offices that report directly to me--
General Counsel and the Managing Director--are responsive to the 
requests of my fellow Board Members as those Members perform their 
important functions within the Board. I have also been adamant that 
requests for information, questions concerning Board activities, 
suggestions on Board actions, recommended comments and changes to 
reports and other Board documents, and requests for assistance in 
speech writing and press releases be given priority by agency offices. 
In short, I have insisted that each of the Board Members be treated 
with respect by the staff and that staff be responsive to Members as 
products and activities are managed within the internal processes 
agreed to by the Board.
    If confirmed as Chairman, I will continue to ensure that Board 
Members are fully informed about the activities of the agency and have 
the opportunity to voice their concerns or concurrences. Moreover, I 
have directed staff to continue to examine new and better ways to 
exchange important information with the Board Members. I personally 
commit to the Committee that, if confirmed, I will use my best efforts 
to include all Board Members in the decision-making processes of this 
agency.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
